<html>
<title> - [H.A.S.C. No. 112-112]NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2013 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TWELFTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 112-112]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2013

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                          BUDGET REQUESTS FROM

                         U.S. CENTRAL COMMAND,

                    U.S. SPECIAL OPERATIONS COMMAND,

                    AND U.S. TRANSPORTATION COMMAND

                               __________

                              HEARING HELD

                             MARCH 7, 2012


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                                 _____

                      U.S. GOVERNMENT PRINTING OFFICE

  73-438                   WASHINGTON : 2012
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7c1b0c133c1f090f081419100c521f131152">[email&#160;protected]</a>  



                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               CHELLIE PINGREE, Maine
ROB WITTMAN, Virginia                LARRY KISSELL, North Carolina
DUNCAN HUNTER, California            MARTIN HEINRICH, New Mexico
JOHN C. FLEMING, M.D., Louisiana     BILL OWENS, New York
MIKE COFFMAN, Colorado               JOHN R. GARAMENDI, California
TOM ROONEY, Florida                  MARK S. CRITZ, Pennsylvania
TODD RUSSELL PLATTS, Pennsylvania    TIM RYAN, Ohio
SCOTT RIGELL, Virginia               C.A. DUTCH RUPPERSBERGER, Maryland
CHRIS GIBSON, New York               HANK JOHNSON, Georgia
VICKY HARTZLER, Missouri             BETTY SUTTON, Ohio
JOE HECK, Nevada                     COLLEEN HANABUSA, Hawaii
BOBBY SCHILLING, Illinois            KATHLEEN C. HOCHUL, New York
JON RUNYAN, New Jersey               JACKIE SPEIER, California
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
                Peter Villano, Professional Staff Member
                Michael Casey, Professional Staff Member
                    Lauren Hauhn, Research Assistant













                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Wednesday, March 7, 2012, Fiscal Year 2013 National Defense 
  Authorization Budget Requests from U.S. Central Command, U.S. 
  Special Operations Command, and U.S. Transportation Command....     1

Appendix:

Wednesday, March 7, 2012.........................................    43
                              ----------                              

                        WEDNESDAY, MARCH 7, 2012
 FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUESTS FROM 
    U.S. CENTRAL COMMAND, U.S. SPECIAL OPERATIONS COMMAND, AND U.S. 
                         TRANSPORTATION COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     3

                               WITNESSES

Fraser, Gen William M., III, USAF, Commander, U.S. Transportation 
  Command........................................................     9
Mattis, Gen James N., USMC, Commander, U.S. Central Command......     5
McRaven, ADM William H., USN, Commander, U.S. Special Operations 
  Command........................................................     7

                                APPENDIX

Prepared Statements:

    Fraser, Gen William M., III..................................   101
    Mattis, Gen James N..........................................    51
    McKeon, Hon. Howard P. ``Buck''..............................    47
    McRaven, ADM William H.......................................    78
    Smith, Hon. Adam.............................................    49

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Garamendi................................................   127
    Mr. Wittman..................................................   127

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................   132
    Mr. Brooks...................................................   146
    Mr. Conaway..................................................   140
    Mr. Franks...................................................   139
    Mr. Lamborn..................................................   140
    Mr. Langevin.................................................   131
    Mr. Runyan...................................................   147
    Mr. Schilling................................................   141
    Mr. Scott....................................................   145
    Mr. Wittman..................................................   140













 FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUESTS FROM 
    U.S. CENTRAL COMMAND, U.S. SPECIAL OPERATIONS COMMAND, AND U.S. 
                         TRANSPORTATION COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, March 7, 2012.
    The committee met, pursuant to call, at 10:03 a.m. in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Good morning. The Committee will come to 
order.
    The House Armed Services Committee meets today to receive 
testimony from the Commanders of U.S. Central Command, General 
James Mattis; U.S. Special Operations Command, Admiral William 
McRaven; U.S. Transportation Command, General William Fraser. 
Thank you all for being with us today.
    Much has changed since we last received testimony from your 
respective commands. We have withdrawn all forces from Iraq; 
continued to disrupt Al Qaeda and target its senior leadership 
around the world; the President has begun the withdrawal of the 
surge forces in Afghanistan; tensions with Iran continue to 
increase; and a new defense strategy has been released that 
demands increased power projection and a more globally 
balanced, agile, and persistent Special Operations Force.
    Still, even more significant events are on the horizon. 
Reports in the press continue to speculate that the 
Administration may be prepared to announce an additional 
withdrawal of forces and a change to an advisory strategy for 
Afghanistan in advance of the NATO [North Atlantic Treaty 
Organization] summit in Chicago in May.
    I see little strategy in such a plan, if it exists; but 
rather a political calculus that will ultimately protract the 
war in Afghanistan, increase casualties, and further erode 
confidence among our allies and credibility among our 
adversaries.
    Meanwhile, Iran is showing little willingness to curtail 
its nuclear program, in spite of the tightening brace of 
economic sanctions imposed at the insistence of Congress.
    Although the Supreme Leader may not yet have made the 
decision to build a nuclear weapon, time is running out for 
Iran to responsibly join the international community.
    I agree with the recent recommendations of the Bipartisan 
Policy Center task force on Iran, led by former Senator Charles 
Robb and retired General Charles Wald, including their warning 
that the United States must immediately shift to a triple-track 
strategy: diplomacy, sanctions, and visible, credible 
preparations for a military option of last resort.
    But let me be clear. This isn't casual talk of war. A 
nuclear Iran is a serious problem that the Commander in Chief 
should be discussing with the American people and our allies 
every day. And it must be confronted with all elements of 
national power, not simply an outstretched hand.
    As for Special Operations Command, I alluded to the changes 
envisioned by the new defense strategy. SOCOM [Special 
Operations Command] is truly being asked to do more, with less. 
The Command's budget was modestly reduced, but it is expected 
to continue its 5 percent growth rate for the next 3 years.
    Furthermore, all signs point to a heavy demand signal for 
our Special Operations Forces in U.S. Central Command where 
more than 80 percent of all deployed Special Operations Forces 
are right now.
    In Afghanistan alone, Special Operations Forces will 
continue to be stretched dangerously thin as conventional and 
enabling forces draw down.
    Although only 8 percent of the total force in Afghanistan, 
Special Operations Forces are increasingly leaned on at the 
local level through the Village Stability Operations and Afghan 
Local Police programs, and at the national level, with ongoing 
counterterrorism and direct action missions in conjunction with 
our Afghan partners.
    And now, with the potential to have a new three-star SOF 
[Special Operations Forces] General or Flag Officer at ISAF 
[International Security Assistance Force] command levels, I am 
increasingly concerned that our Special Operations Forces may 
be forced into an overburdened role if our conventional forces 
withdraw too fast and without a sound transition to the Afghan 
National Security Forces.
    Finally, we speculated last year what might happen should 
Pakistan close supply routes to Afghanistan, and now we know.
    TRANSCOM [Transportation Command] has been doing incredible 
work to make sure that our troops in Afghanistan continue to 
get what they need in spite of the current downturn in U.S.-
Pakistan relations.
    Looking forward, TRANSCOM will be challenged to provide 
their--the lift and prepositioned stocks necessary to fulfill 
the vision laid out in the new defense strategy.
    It seems to me that an increasing emphasis on the Asia-
Pacific, and an increasingly maritime theater in the Middle 
East, will demand more lift, refueling, and prepositioned 
assets--not less.
    Yet the President's budget request reduces our capacity in 
each of these areas. This topic warrants further oversight by 
this committee and I look forward to your testimony on these 
matters and more.
    Ranking Member Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 47.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    I want to thank all three of you gentlemen for being here 
this morning and for your great service to our country.
    Central Command, Operations Command, Transportation 
Command--three critical components of our entire national 
security strategy, I think this will be a very informative 
hearing. I look forward to your testimony and your answers to 
the questions of the members.
    In CENTCOM [Central Command], we seem to have, you know, 
not quite all of the world's problems gathered in one place but 
I am sure, General Jim Mattis, it seems like that at times. It 
is certainly a very challenging area.
    For our committee, Afghanistan continues to be job one and 
that is where our troops are actively engaged in a war.
    We want to make sure the strategy is working there and that 
we have a plan going forward, and then most importantly, we are 
providing everything that you need to make sure that our troops 
can do the job and the task that they have been given in that 
critically important region.
    But certainly, Afghanistan is not the only issue. We are 
curious to hear how the relationship with Pakistan continues to 
impact what is going on in Afghanistan and the larger problems 
in the region.
    That certainly has been a very problematic relationship. 
You know, the classic ``can't live with them, can't live 
without them'' situation, but I am mindful of the fact that we 
need to try to maintain whatever relationship we can with 
Pakistan.
    It is a dangerous part of the world. But whatever help we 
can get from them, we need; and where we can't get help, we 
need to figure out what we have to do in order to meet the 
national security challenges that we have in that region.
    But all of that adds up to the fact that we cannot simply 
walk away from Pakistan. We need to find a way to make that 
relationship work and your insights on that would be very 
helpful to this Committee.
    As the Chairman mentioned, there are other problems in the 
region, in Syria and in Iran. So overall, it is a very 
challenging command that you have and we thank you for your 
leadership.
    Admiral McRaven, we thank you for everything SOCOM has 
done.
    It is been an amazing set of accomplishments over the 
course of the last few years--most notably of course, taking 
out Osama bin Laden with an incredible precision and talent 
that was just--that was exactly the way I think the Special 
Operations folks envisioned the development of SOCOM.
    You know, way back in 1980 when we first started to rethink 
what we need in the Special Operations Force, it was, you know, 
just an incredible accomplishment. We thank you for that, but 
certainly not the only one.
    All across the globe, Al Qaeda is on the run and in trouble 
because of the pressure that our military and our Intelligence 
Services are putting on them, and SOCOM is, I like to say, is 
at the tip of the spear on all of that.
    It is been an incredible string of successes and without a 
doubt, it is contributed to the fact that we have not had an 
attack here in the U.S.
    If you are a member of Al Qaeda whether you are in 
Pakistan, Yemen, Somalia, wherever, you are forced to spend the 
bulk of your time wondering when a missile might come down on 
you from nowhere.
    And I got to believe that makes it vastly more difficult to 
do what you are trying to do and we thank you for that great 
leadership, and we also want to thank Admiral Olson and some of 
the other predecessors.
    A plan was put in place, 5 or 6 years ago to grow the 
Special Operations Forces to meet the very challenges that we 
saw.
    I guess I would disagree with the Chairman a little bit 
here, you are not doing more, but less--you are doing more with 
more. It is just that the more that you have to do, perhaps, 
outstrip the more that you are getting in terms of supplies and 
you are doing a great and we appreciate that.
    And also, most importantly, you know, there was concern 
when all of these started because the quality of the Special 
Operations Forces is critical. We don't simply--you can't just 
pick people up off the streets and make them into special 
operators.
    And you guys have done an amazing job of training them and 
making sure that as the Force has grown, the quality has been 
maintained. So, we thank you for that and we look forward to 
hearing from you how we can continue to support your efforts.
    And of course, none of this happens without Transportation 
Command. That is how all the troops, the equipment gets to 
where it needs to be and win.
    The complexity of your job, General Fraser, is something I 
don't think most people appreciate and you have done it 
amazingly well. We have had incredible supply chains, 
incredible ability to get, you know, our troops the support 
they need when they need it.
    You know, obviously, the two challenges are the ones that 
the Chairman mentioned: one, how do we continue to provide the 
supplies in Afghanistan that we need given the challenges in 
Pakistan? You have done an amazing job of making that work and 
I want to hear more about how that is going.
    And then as we do lay out the new strategy with the new set 
of equipment that is going to be provided for over the course 
of the next decade, how does that fit into your long-term 
plans? What do we need to do to make sure the strategy works?
    I will again emphasize and thank all of you--all 
participated in the strategy review. It was a comprehensive 
approach to look at our national security needs and say, ``What 
should the strategy be?''
    We have had a debate on this committee and I suspect we 
will continue to have debate about what role the shrinking 
budget played in that strategy? Was it the strategy that drove 
it or was it the budget that drove it? I would say, obviously, 
it was a little bit of both.
    Every strategy, every development in this situation had to 
at least partially factor in the resources available to 
implement it. I think taking the approach that you all did 
which was, let us look at the strategy, figure out what we need 
to do, and then take another look and say, ``How can we make 
this work within this budget environment?'' was the exact, 
right approach and the strategy that has been laid out makes 
sense.
    I wish we had more money, wish we had more money for a lot 
of things. We are having a big debate right now about passing a 
transportation bill here. And the big debate there is we don't 
have enough money to do what people would like to do.
    We are going to have many challenges in many areas but our 
physical situation is what it is. It is incredibly important. 
We cannot be a deterrent nation forever. Deficits can in fact 
explode to the point where they jeopardize our national 
security so that has to be at least part of the conversation.
    And I think the national security apparatus in our country 
did a really good job of looking at those confined resources 
and still coming up with a strategy that meets the national 
security priorities of this Nation.
    I thank all of you for doing that. I look forward to you 
testimony. And thank you, Mr. Chairman.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 49.]
    The Chairman. Thank you. General Mattis.

STATEMENT OF GEN JAMES N. MATTIS, USMC, COMMANDER, U.S. CENTRAL 
                            COMMAND

    General Mattis. Thank you, Mr. Chairman, Ranking Member 
Smith, Members of the committee. And thank you for this 
opportunity to discuss the U.S. Central Command region.
    I have submitted a written statement and request it be 
accepted for the record.
    The Chairman. Without objection, so ordered.
    General Mattis. It is my privilege to appear today 
alongside two admired leaders, Admiral Bill McRaven and General 
Will Fraser. Special Operations Command and Transportation 
Command had been key enablers to our operations in Central 
Command and I am grateful for these officers' personal support.
    Let me begin with what I see today in the Central region. 
The Arab Awakening is manifesting differently in each country.
    While we may hope for and certainly will firmly support 
efforts for more democratic government, the awakening's origins 
are not necessarily a rush for democracy. Rather, this 
awakening stems from breakdown in the social contract between 
governments and their people.
    Unjust or unresponsive regimes have fallen or are in the 
throes of falling, as is the case in Syria. However, the 
transition to a democratic government is never easy as we see 
in Egypt. Further, it is not clear what the resulting 
governments across the region will look like.
    Challenges remain beyond the promise of the Arab Awakening. 
Iran and its surrogates continue to orchestrate violence 
worldwide as evidenced by its plot to kill the Saudi Ambassador 
here in Washington, D.C.
    Iran represents the most significant regional threat to 
stability and security. Its reckless behavior and bellicose 
rhetoric have created a high potential for miscalculation.
    While we have made security gains in the fight against 
terrorists, the threat remains. Al Qaeda and associated groups 
continue to kill innocents from the Levant to Yemen and are 
adapting in the face of U.S. pressure.
    While we maintain our pressure on the enemy, we are nesting 
our military efforts inside four broad U.S. diplomatic 
objectives for the region: first, we support each country's 
political reform to adapt at their own pace; second, support 
for economic modernization to provide the people ownership of 
their future; third, a renewed pursuit of Middle East peace, 
recognizing the status quo is simply not sustainable; finally, 
we stand firmly with our friends and we support regional 
security, territorial integrity of sovereign nations and the 
free flow of commerce.
    As the Military Commander for the Central region, my 
overarching goal is to prevent another conflict. We seek to 
deter those with hostile intent. And should deterrence prove 
unsuccessful, we provide military options to the President.
    As our President has said, our strong presence in the 
Middle East endures and the United States will never waver in 
defense of our allies, our partners or our interests.
    The military challenge will be determined how we retain a 
sustainable presence and operational flexibility in a 
physically constrained environment.
    Although we are withdrawing ground forces from the region, 
we are not withdrawing our support for long-time allies and 
partners, nor are we pulling back our commitment from a region 
that too many times has taken a commitment of American blood 
and treasure to restore stability.
    Through a persistent military-to-military engagement, our 
troops reassure our friends and temper adversary intentions.
    Security cooperation activities such as foreign military 
sales; international military education and training; security 
force training; and multinational exercises are cost-effective 
means for building our friends' defensive capabilities, 
allowing us to operate in consort with allies and friends and 
to rapidly respond in times of need.
    A sustained joint presence with a pronounced naval 
character supported by embarked troops, agile Special 
Operations Forces, strong aviation elements and an 
expeditionary Army and Marine Corps, demonstrates our joint 
commitment to our allies, underwrites regional stability, 
familiarizes our forces with the theater and builds partner 
abilities to protect themselves, all while providing timely 
response to crisis.
    There are some other key-needed capabilities that we have. 
We need improved counter-IED [Improvised Explosive Device] 
efforts even now for all the effort we have put into this.
    We need them to protect our troops from a pervasive threat 
that extends well beyond Afghanistan; information operations 
and voice programs to counter adversary information; and 
recruiting on the Internet; improved ISR [Intelligence, 
Surveillance, and Reconnaissance] assets that enable us to 
locate an elusive enemy; and intelligence expertise to support 
deployed elements.
    We also need specific resources that are vital to the 
Afghanistan campaign. Coalition support funds, the Commander's 
Emergency Response Program, Afghanistan Infrastructure Fund and 
reintegration authority enable us to meet urgent humanitarian 
and infrastructure needs of a population that is increasingly 
today secured by its own forces we have been building and 
training for the Afghan Security Forces Fund.
    In conclusion, I appreciate the essential resources you 
provide which enable us to carry up the strategy assigned.
    We ask only for what we need and what we request is 
critical as we carry out the transition in Afghanistan and 
continue on course to achieve our desired strategic end state 
there by December 2014 as laid out at the NATO conference in 
Lisbon.
    Thanks to Congressional support and thanks to the 
sacrifices of our military families, our forces represent 
America's awesome determination to stand by our friends, 
maintain regional stability and defense of our values and our 
interests.
    I look forward to answering your questions.
    [The prepared statement of General Mattis can be found in 
the Appendix on page 51.]
    The Chairman. Thank you. Admiral McRaven.

   STATEMENT OF ADM WILLIAM H. MCRAVEN, USN, COMMANDER, U.S. 
                   SPECIAL OPERATIONS COMMAND

    Admiral McRaven. Good morning. Chairman McKeon, Ranking 
Member Smith and distinguished members of the Committee, thank 
you for the opportunity to appear before you today and 
represent the extraordinary men and women of the United States 
Special Operations Command.
    It is an honor to command the world's finest special 
operations force, a force serving side by side with our broader 
military and interagency teammates. And I am proud to appear 
today with my friends and teammates, General Jim Mattis and 
General Will Fraser.
    With your permission, sir, I will submit my written posture 
statement for the record and open with some brief remarks.
    The Chairman. Without objection, so ordered.
    Admiral McRaven. This morning I would like to provide you 
an overview of SOF's role in addressing our Nation's ongoing 
and emergency--emerging security challenges.
    Secretary Panetta recently outlined how he viewed the 
future joint force. He called for low-cost, lean, 
technologically advanced, agile, responsive, innovative, 
efficient and effective forces able to address a variety of 
challenges and adversaries.
    As I read those characteristics, I am struck at how 
accurately they described your Special Operations Forces and 
what we bring to the military arsenal.
    Special Operations Forces have had a tremendous impact on 
our Nation's security and never more so during the last 10 
years of war. Since 9/11, our force has doubled in size, now at 
66,000. Our budget has tripled and a number of SOF-deployed 
forces have quadrupled to meet the emerging demands.
    However, even with that growth, our $10.4 billion budget in 
fiscal year 2013 still comprises only 1.7 percent of the total 
DOD [Department of Defense] budget. Simply put, SOF remains 
relevant, in high demand, and offers unparalleled return on the 
Nation's investment.
    As we evaluate today's rapidly evolving strategic 
landscape, it is clear that the demand for Special Operations 
capability will remain high.
    Our near-term focus is on weighing the current fight 
against violent extremism. First and foremost, we will sustain 
our efforts in Afghanistan in support of ISAF by continuing the 
application of SOF's direct and indirect approach.
    The direct approach, lethal and precise, continues to 
degrade extremist leadership and their facilitation networks. 
The indirect approach, which I believe offers the greatest 
opportunity for victory, builds security and governance through 
efforts such as the Village Stability Operations and the 
development of Afghan security forces.
    Both the direct and indirect approaches continue to have 
daily positive impacts on ISAF strategy. Our sacrifice and 
effort in Afghanistan has been tremendous and we continue to 
make this our highest priority.
    In addition to our efforts in Afghanistan, we also strive 
to maintain persistent presence globally. Today, U.S. Special 
Operations Forces are in 78 countries around the world 
supporting U.S. policy objectives.
    In the Pacific, Africa, Latin America, Europe and other 
regions, SOF's unique skills, cultural knowledge and ability to 
work with partners creates effects far above our relatively 
small numbers.
    All of these international engagements are done with the 
complete support and the approval of their respective 
geographic combatant commanders and the chiefs of mission.
    In addition to our focus on winning the current fight, I am 
committed to strengthen in our support to the geographic 
combatant commanders via reinforcing and enabling their theater 
Special Operations Commands.
    As you know, the Theater Special Operations Commands are 
subunified commands of the GCCs [geographic combatant commands] 
and provide the regional commanders his Special Operations 
capability.
    As a force provider for those SOF capabilities, USSOCOM 
will ensure theater Special Operations Commands have the human 
capital, the capability and the SOF expertise to meet the GCC's 
requirements.
    Another important aspect of SOF's utility to the GCC's is 
our ability to partner with other national SOFs.
    Since the establishment of service, Special Operations 
Forces in the 1960s and then USSOCOM in 1987, our relationship 
with our allied partner forces around the world has 
strengthened each nation's SOF and each nation's ability to 
deal with their own security problems. We must continue to 
build these relationships wherever possible.
    To win the current fight and strengthen our support to 
geographic combatant commanders, it will be necessary to ensure 
our force and their families remain strong.
    My predecessor, Admiral Eric Olson, established the task 
force to examine the fraying around the edges in our SOF 
community. We confirm that a decade of war coupled with a 
consistently high demand signal for SOF has exerted a physical 
and emotional stress on our force and families.
    I am committed to taking care of our people with the best 
support we can provide. I have put a general officer and my 
command Sergeant Major in charge of preservation of the Force 
and families.
    They are empowered to implement innovative solutions across 
the SOCOM enterprise to improve the well-being of our warriors 
and their families.
    In conclusion, the demands for SOF will not end in the 
perceivable future. With your strong advocacy, we will continue 
to sustain a world class Special Operations capability thereby 
providing the Nation a decisive edge in addressing the 
challenges that affects us today and will undoubtedly emerge 
tomorrow.
    It is an honor to appear before you today as a commander of 
the United States Special Operations Command. You can take 
pride in what the men and women of Special Operations are 
accomplishing around the world each and every day.
    Thank you for your continued support and I look forward to 
answering your questions.
    [The prepared statement of Admiral McRaven can be found in 
the Appendix on page 78.]
    The Chairman. Thank you. General Fraser.

 STATEMENT OF GEN WILLIAM M. FRASER III, USAF, COMMANDER, U.S. 
                     TRANSPORTATION COMMAND

    General Fraser. Good morning. Chairman McKeon, Ranking 
Member Smith, distinguished Members of this committee, it is my 
distinct privilege to be here with you today representing the 
United States Transportation Command.
    We are a Total Force team of approximately 150,000 men, 
women, military and civilians dedicated to deploying, 
sustaining and then returning home our Nation's most precious 
resource--our men and women in uniform.
    United States Transportation Command is a lean, dynamic 
organization which plays a critical role in supporting our 
Joint Force around the world.
    I am indeed honored and privileged to be joined here today 
with my good friends, General Jim Mattis and Admiral Bill 
McRaven.
    During 2011, the United States Transportation Command added 
a new Command--the Joint Enabling Capabilities Command led by 
Rear Admiral Scott Stearney.
    We added it to our component command leadership team which 
is comprised of Air Mobility Command led by General Ray Johns; 
Military Sealift Command led by Rear Admiral Mark Buzby; and 
Surface Deployment and Distribution Command led by Major 
General Kevin Leonard.
    Over the last month, I have witnessed firsthand the spirit 
and the ingenuity of our subordinate commands during my travels 
throughout the United States, Central Asia, Afghanistan, the 
Pacific, and Antarctica, just to name a few.
    This year has been particularly challenging as our team of 
Active Duty Guard; Reserve civilian servants, merchant mariners 
and commercial partners; maintained an unusually high 
operations tempo supporting combat operations, sustainment 
efforts, humanitarian relief and crisis action responses, both 
at home and abroad.
    These efforts from the evacuation of Japan following the 
devastating earthquake and tsunami; to supporting the 
warfighter in Afghanistan; to our withdrawal from Iraq at the 
end of 2011; were all made possible by the amazing United 
States Transportation Command professionals who are committed 
to ensuring our Joint Force maintains global logistics 
dominance.
    As we enter a very challenging physical environment, 
focusing on capabilities which are needed for the 21st century 
as defined in the President's defense strategy, our challenge 
is to continue to find fiscally responsible efficiencies to 
deliver the required capability for the combatant commanders.
    The United States Transportation Command strongly supports 
this transition and will remain focused on supporting our 
forces around the world. This will not be an easy task. The new 
strategic guidance requires a military that is smaller and 
leaner, while at the same time, being more agile, flexible, and 
ready.
    Having an integrated distribution system will be important 
to our Nation. And the Unites States Transportation Command 
will meet the challenges of this new environment. We will 
continue to build our relationships with the interagency and 
with other nongovernmental organizations, commercial and 
international partners.
    Together, we will ensure our Nation's ability to project 
national military power and be able to confront other national 
challenges anywhere and anytime.
    Since taking command last fall, I have been amazed to see 
the unique capabilities that are inherent in the Command and I 
could not be prouder of the United States Transportation 
Command team and our partners.
    No one in the world can match our Nation's deployment and 
distribution capability, and the foundation of this enterprise 
is the enthusiasm, the dedication and efficiency of the United 
States Transportation Command team.
    Chairman McKeon, Ranking Member Smith and all the Members 
of this committee, I want to thank you for your continued 
superb support of the United States Transportation Command and 
all our men and women in uniform.
    I am grateful for the opportunity to appear before the 
committee today. I do ask that my written statement be 
submitted for the record. I look forward to your questions. 
Thank you.
    [The prepared statement of General Fraser can be found in 
the Appendix on page 101.]
    The Chairman. Without objection, so ordered.
    Thank you for your statements.
    General Mattis, I mentioned the report of the Bipartisan 
Policy Center in my opening statement. I would like to get your 
thoughts on their recommendations in the context of asking 
about your satisfaction with our ability to respond to an 
Iranian scenario.
    The BPC [Bipartisan Policy Center] emphasized the United 
States must be clear that we are willing to prevent a nuclear 
Iran which includes making visible and incredible preparations 
for U.S. military options including maintaining two carrier-
sized groups and deploying an additional mine countermeasures 
squadron to the area; conducting broad exercises for the 
regional allies; prepositioning U.S. military supplies; and 
augmenting the credibility of the Israeli prep by bolstering 
its ability--its capability to strike around Iran's program.
    They suggest that if such pressure fails, the U.S. should 
consider quarantining refined petroleum imports into Iran and 
ultimately to be capable of an effective surgical strike on 
Iranian nuclear and military facilities.
    What is your assessment of these recommendations?
    General Mattis. Chairman, I read the report and I believe 
that I have the forces to include some of the specific forces 
that they outlined in the report. I also have significantly 
more forces than they highlight.
    We are conducting with our allies, partners, friends in the 
region, numerous exercises, quiet in many cases, but they are 
very obvious to our friends across the water.
    As far as prepositioning of equipment, I have prepositioned 
equipment in place for Army, Navy, Air Force and Marines and I 
think we are in a very credible position in terms of offering 
the President's options should they need to exercise them.
    The Chairman. Are you satisfied with your current 
authorities to respond to an Iranian crisis?
    General Mattis. Absolutely, Mr. Chairman.
    The Chairman. Thank you.
    Admiral McRaven, your request for fiscal year 2013 is $10.4 
billion, which is approximately $100 million less than the 
fiscal year 2012 authorized levels. As I said in my own opening 
statement, you are truly being asked to do more with less since 
the size of your force will continue to grow to 71,000 by 
fiscal year 2015.
    Where are you assuming the most risk in your budget 
request?
    Admiral McRaven. Sir, fortunately, the fiscal year 2013 
budget took care of Special Operations pretty well, as you 
know.
    When you take a look at where we took our cuts, where we 
recommended our cuts to the Secretary and to the President, was 
in our light submersible program, which we have kind of 
postponed. But we have additional submersible programs that 
frankly will cover down on that capability. And, we have 
delayed some of our nonstandard aviation.
    So, I am very comfortable with the fiscal year 2013 budget 
as it stands now. Sir, I think, again, it has done a good job 
of protecting the critical capability that SOF brings to the 
military arsenal particularly our people.
    As you mentioned, sir, we will grow to 66,000 this year and 
if the budget slope stays as per ramp-up to 71,000 by fiscal 
year 2015.
    The Chairman. Since your Force relies heavily on all of the 
other Services, how are the cuts to the Services--the other 
Services impacting on your overall growth and operational 
readiness?
    Admiral McRaven. Sir, I would say it is a little too early 
to tell. Those cuts have come in place this year but we will 
see that service degradation over time. What I will tell you, 
though, is that the service chiefs and I talked pretty 
routinely.
    They understand that Special Operations is not Special 
Operations without the support of the Services and I get 
fantastic support from the Army, Navy, Air Force and Marine 
Corps.
    So, both the personal relationships I have with the Service 
Chiefs and the professional relationships between SOCOM and the 
Services, I am very confident that we will do fine as the 
Services draw down a little bit.
    The Chairman. Thank you. We haven't--as we get into the 
Subcommittee hearings and markups, we will find out better what 
these cuts, what these impacts will be across all the different 
programs.
    I doubt that we just take the President's budget and 
rubberstamp it but we will be going through all of these things 
at those levels and that will give us better information as we 
move forward.
    General Fraser, in response to the budget cuts and the new 
defense strategy, the Air Force plans to retire 27 C-5As, 
bringing the total strategic lift to 274. The Air Force will 
also retire 65 C-130H1s and divest all of the program 38C, 27J 
aircraft reducing our tactical lift force structure to 318.
    What is the required strategic lift to meet our current 
wartime requirements?
    General Fraser. Chairman, thank you very much. The planned 
reductions are reductions that I support based on analysis that 
we have done.
    As you know, we completed Mobility Capabilities and 
Requirements Study 2016 but that was based on a different 
strategy and a different requirement in different scenarios. We 
now have a new strategy.
    We have evaluated that strategy and taken a look at the 
fore structure that has been proposed with the strategic lift 
and are comfortable that it is manageable and we will be able 
to support it as far as the combatant commander requirements 
go.
    I would also note though that this is a more modernized 
force. When I look at the strategic airlift, the piece of this, 
this is principally about our outsized and oversized cargo. And 
the requirement there and what they are reducing to will 
actually enable us to have greater capability and capacity.
    And, what I am saying is with a modernized C-17 ERF, 
Extended Range Force, coupled with 52 C-5Ms which are 
modernized C-5Ms, actually give us more capability and capacity 
in the sense that we are able to support the scenarios in which 
we are given against.
    The A models are less mission-capable. They can't carry as 
much. They are also only meeting a mission capability rate of 
about 55 percent. The Ms are going to be about 75 percent. And 
that is what we are looking forward to in the future with 
greater capacity and capability.
    I give you a real world example. The A models are not able 
to do the polar overflight. The M models can, and they can 
carry a load of over 100,000 pounds. You cannot do that with 
the As.
    So there is an efficiency. There is a capability. There is 
a capacity there that will enable us to still meet the 
requirements.
    The 130s you mentioned are also in the same boat, in the 
sense that it is going to be a modernized force. It is going to 
be an optimized legacy force of Hs, also a greater number of Js 
that they have laid the C-130Js that they have laid in.
    And so, that will enable us to be able to accomplish the 
mission of the inner theater lift. Also, we will still be able 
to accomplish the role of dedicated support to the Army.
    The requirement there is approximately 48 to 50 aircraft 
and can be accomplished with the C-130 aircrafts. So I am very 
comfortable with what they have laid in back by the initial 
analysis we have done.
    The Chairman. Thank you very much. Ranking Member Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    General Mattis, in Afghanistan, there are, you know, a 
couple of troubling reports coming out in terms of dealing with 
President Karzai on the issues.
    Number one, their insistence on us returning, you know, all 
prisoners to them that we have captured, on that issue, and 
then, the issue of night raids which I will be curious about 
Admiral McRaven's comments on that, as well, and it is always 
been a real challenge in Afghanistan, you know, having a 
reliable partner in the Afghan Government.
    They certainly have their challenges. President Karzai has 
said many things that make it more difficult, but you are very 
familiar with.
    So I am just curious on those two issues, in particular, 
but then on the broader issue of how you see our partnership 
with Afghanistan, which obviously is so critical to the success 
of our effort.
    How is that going and what impact you think that should 
have on our strategy depending on how those two issues and some 
of the other conflicts are resolved? And I will be curious on 
both General Mattis and Admiral McRaven's comments on that.
    General Mattis. Congressman, the desire of President Karzai 
to have sovereignty over his country is one we fully support.
    The reason we are there is to stand up his military-to-
military reason and to enable--support them in standing up a 
government that can meet the needs of their people and ensure 
Afghanistan never becomes again a haven for the kind of attacks 
on our country that we sustained back in 9/11.
    Certainly, there are very difficult issues that we have got 
to sort out between us. His desire for sovereignty mirrors our 
desire for Afghan sovereignty--timelines, how you do it, the 
devil is in the details, so to speak, that is where we come 
into some of the discussions that when they get portrayed 
publicly, showed that there are different equities involved 
here.
    With that said, with Ambassador Crocker and General Allen 
there representing us, knowing that we have got some very 
practiced and long-term allied leaders there in Minister 
Wardak, Minister of Defense; and Minister Bismillah Khan, 
Minister of Interior.
    At the working level, we are working through these issues. 
They are difficult issues. These are two that cut to the very 
heart of their self-image. We understand that and we are seeing 
an increased Afghanization of the night operations, for 
example. And this is exactly consistent with where we want to 
go and where President Karzai wants to go.
    They are also, I must add, they--the military activities 
that are generally least apt to have any civilian casualties, 
which is why we are very adamant that we must continue these to 
throw the enemy leadership off-balance while doing the least 
possible harm to any of the Afghan people.
    But overall, after 10 years of war and the stresses that 
come from that, I think we are in relatively good shape.
    Mr. Smith. Yes, thank you.
    Admiral McRaven, your own comment on that issue.
    Admiral McRaven. Yes, sir. I will echo General Mattis' 
comments on night raids. It is an essential tool for our 
Special Operations Forces to be able to have the ability to 
conduct night raids.
    The enemy invariably will bed down at night which makes 
them that much more targetable. As General Mattis mentioned, 
also what happens is the rest of the village bed down--beds 
down at night, so consequently, the potential for collateral 
damage and civilian casualties is much less.
    What we have done is we have really Afghanized our night 
raid approach, really for over probably about the last 9 to 10 
months. We have made a very consorted effort. The Afghans are 
in the lead on all our night raids.
    They are the ones that do the call outs, asking the people 
to come out of the compounds. They are the first ones through 
the door. They are the ones that do all of the sensitive side 
exploitation.
    So this is really the common Afghan heavy lead on the night 
raids. But we continue to recommend, from a SOF perspective, to 
General Mattis, General Allen and Ambassador Crocker, that we 
continue the night raids.
    Mr. Smith. Thank you very much. I have more questions. But, 
I had the opportunity to meet with all of you so I want to give 
my colleagues a chance. I will yield back. Thank you.
    The Chairman. Thank you. Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman, and thank all of 
you for being here.
    Admiral McRaven, the new strategy from the Administration 
talks about a greater emphasis on Special Operations Forces. 
And in the past, you have talked about a global SOF network, 
rebalancing our SOF forces around the world.
    There are some press reports that there are plans under 
consideration to give you some greater flexibility in moving 
Special Operations Forces around the world. I think there maybe 
some misunderstanding about that.
    Can you describe what the plan is under consideration?
    Admiral McRaven. Yes, sir. Thank you, Congressman. I am 
happy to set the record straight on this.
    Every 2 years, the Pentagon goes to the staffing process of 
looking at the unified command plan which lays out the 
missions, responsibilities of the combatant commanders. 
Additionally every year, we look at the forces four which takes 
a look at the assigned forces to the combatant commanders.
    So USSOCOM is involved in those processes, and right now, 
that is kind of internal Pentagon deliberations. We have not 
even briefed this to the Chairman or the Secretary yet so I 
think it would be a little bit inappropriate to get too far out 
ahead of them.
    Having said that, one of the things I would like to make 
clear is that all of our recommendations ensure that we 
coordinate with the geographic combatant commanders that we get 
their approval before any forces are moved--SOF forces are 
moved from the continental United States or from one geographic 
combatant command to the other.
    We also make sure that anytime we go into a foreign nation, 
the chief of mission, the Ambassador, has to approve the 
movement of Special Operations Forces into that nation.
    So as we go through these deliberations internal to the 
Pentagon, those two pieces--the geographic combatant 
commander's equities and the chief of mission's equities--are 
always being considered, and we would never recommend, and I 
would certainly never recommend that we circumvent either of 
those.
    Mr. Thornberry. General Mattis, based on your 
understanding, does this seem like a good idea to you?
    General Mattis. Yes, sir. My recommendation would be to 
support Admiral McRaven's initiative. I have no reservations 
about it, but again, it is very premature. I have not formally 
even submitted that recommendation, sir.
    Mr. Thornberry. Well, let me--speaking of press reports, 
let me try another one out on you.
    There have been press reports that there is consideration, 
at least somewhere in the Administration, of taking all the 
Special Operations Forces in Afghanistan and switching them to 
a Title 50 hat. And so, that way, we can pretend that they are 
not there in some way.
    And, General Mattis, I suspect you have seen the story to 
which I refer. Is there any consideration of a plan like that?
    General Mattis. None whatsoever, Congressman.
    Mr. Thornberry. Well, take it back from a little less 
sensational. There are also concerns that, as the numbers of 
conventional forces go down in Afghanistan, that our Special 
Operations troops will be asked to do more--take up those 
missions or maybe even increase.
    And so, I have some concern that, as we draw down numbers 
perhaps for political reasons, that we are going to stretch our 
Special Operations Forces more and more expecting more of them.
    What can you tell us about this ratio of SOF forces to 
conventional forces and how that interplay is expected to go in 
Afghanistan?
    General Mattis. I would make a couple of points, 
Congressman.
    First, Special Operations Forces forte has to do with 
working with indigenous forces advising and assisting them. So, 
as we stand up using our conventional and Special Forces, the 
Afghan security forces, they are the ones who will carry more 
of the load. The Afghan forces will.
    But we do not want to simply pull the training wheels off. 
We don't want to pull off the people who have been called in, 
close air support for them, and say, ``You are on your own.''
    Special Forces will pick up more of that, certainly. But it 
is in percentage because as the number of our general purpose 
forces draws down towards 20 under 2014, when we pull them out, 
we will still need the advisers there.
    And I think that is where the interpretation is coming that 
more is going to be demanded of the Special Forces. I don't see 
it that way. I see them continuing their traditional role and 
the Afghan Forces, more will be demanded from them, and they 
are doing more each year now.
    Mr. Thornberry. Admiral McRaven, can you just briefly 
comment--you are all going to do whatever you are asked to do, 
but do you not require some level of conventional forces to 
help--as a means of support for your folks to do their job?
    Admiral McRaven. Yes, sir, we absolutely do. And, I think 
when you look at the current strategy for Afghanistan and 
General Mattis and General Allen and I talked frequently about 
this, there is an understanding that there will have to be some 
conventional force capability, remains to be seen how much 
capability, but there will need to be some capability as the 
forces remain--as our forces remain in Afghanistan.
    We have--I think, SOF brings to the fight, our strengths is 
our core capabilities for counterterrorism, for COIN--
counterinsurgency--and for security force assistance.
    Having said that, things like route clearance packages, 
some of the big ISR requirements, some of the CASEVAC [Casualty 
Evacuation] and MEDEVAC [Medical Evacuation], these are 
provided by the conventional forces.
    So, we will still need to have that capability regardless 
of what is left in terms of the SOF Force in Afghanistan.
    The Chairman. Thank you. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Welcome, gentlemen. Thank you for your service.
    General Mattis, there has been a recent report that 
Ambassador Crocker in the classified cable expressed concern 
about the Taliban sanctuaries in Pakistan and their impact on 
our ability to continue to be effective in Afghanistan, my 
question is, would failure to eliminate the Taliban safe zones 
in Pakistan, is that a showstopper for us in our operations and 
our efforts in Afghanistan?
    General Mattis. No, Congressman. It is not. And if I were 
sitting here 2\1/2\ years ago, I would probably be asked with 
the enemy, the Taliban, move it against Islamabad only 60 miles 
away in Swat Valley.
    This is--these havens have just become a penalty, both 
countries--that is recognized in both countries. And today, as 
you know, the Pakistan Army has thrown the Taliban buck back up 
into the mountains.
    They continue to fight. They fight--fought this week. They 
continue to take casualties in this fight and I--the havens 
that are there in some of those areas exist because the 
Pakistan Army is stretched.
    Now we do have a problematic-at-times relationship with 
Pakistan. But that does not prevent us from working it and 
there is a lot of common ground that we use--that we operate 
off of together against this enemy.
    We don't have 100 percent common ground about it, but it is 
not a showstopper.
    Mr. Reyes. Okay. Thank you.
    Admiral McRaven, in the 2012 Defense Strategic Guidance, it 
indicates a shift to the Asia-Pacific or an emphasis to the 
Asia-Pacific region. How does this impact our Special Ops 
Forces, given the fact that we have been mostly focused for the 
last 10 years in the Iraq-Afghanistan theaters?
    Admiral McRaven. Thank you, sir.
    SOF Forces have had a longstanding partnership with many of 
our allies in the Asia-Pacific region starting from Korea, and 
the Philippines, in Thailand, in Singapore. And, we expected 
those relationships will continue, if not get stronger, as time 
goes on.
    I would tell you what I think, SOF's benefit to this new 
strategy is that we can uncover down with security force 
assistance in areas where the conventional forces may not be 
fully engaged such as South America, Africa, other regions 
where we have applied less capability over the years.
    So, SOF can be an enabling force in other regions as the 
larger conventional force shifts its emphasis on the Asia-
Pacific region.
    Mr. Reyes. Thank you.
    General Fraser, the great majority of equipment that is 
moved by TRANSCOM goes by sea using ships that are operated by 
the Military Sealift Command, which is a component of TRANSCOM.
    For ships operating in maritime security programs, what do 
the potential cut backs mean, would that put the companies out 
of business? Will that force them to mothball and what kind of 
impact would be felt in that area?
    General Fraser. Congressman, thank you.
    The entire command is certainly dependent upon our 
commercial partners. This is both for air, as well as for 
sealift.
    You specifically addressed sealift. We are doing a lot with 
our commercial partners with respect to sea as we have shipped 
more goods sustainment via ship. And then also, before the 
Pakistan border was closed down, we would take it to Karachi, 
and then we would truck it in.
    The flexibility that we have with our commercial partners, 
though, is that when the border shut down, we were able to 
redirect these ships and then use their network to go to other 
ports, offload the sustainment supplies, offload unit cargo, 
store it and then fly it in.
    We call this multimodal--by taking it by sea, taking it to 
a port and then, further onward movement, taking it in by air.
    As we look to the future and we see the drawdown in Iraq 
already, it is having some impact because we are not doing as 
much by sea.
    And we have recently gone and booked the last ships that 
are necessary to bring out the cargo that was brought out of 
Iraq. And, we look forward to getting that back. But we will be 
doing less in the future as we move to change the size of the 
force, also in Afghanistan.
    Our commercial partners are aware of that. It is going to 
be going down and they need to plan accordingly.
    Mr. Reyes. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. And, I want to thank 
all of you for your service to our country and for being with 
us today. I know each of us which we could spend more time 
talking with you and picking your brains with the experience 
and knowledge that you have.
    General Fraser, thank you for taking time. I know how busy 
your schedule is but to meet with us and talk about readiness 
needs even in addition to this hearing today.
    General, we know that you are the Commander of the U.S. 
Transportation Command and just looking at the nature of that 
command, it is a single manager for global air, land, and sea 
transportation for the Department of Defense, and a fancy way 
of basically saying, ``You have got to get the assets to our 
combatant commanders when they need them.''
    Mr. Reyes mentioned the fact that, with the new strategy we 
have, at least a renewed focus or additional focus in the Asia-
Pacific area and one of the big concerns there is our new air-
sea battle concept and how that may play out.
    One of the things that we have also heard is the Navy has 
proposed, as you know, a reduction in their prepositioned 
operating stocks, and the same time, the fiscal year 2013 
budget is talking about a reduction in strategic lift.
    So my first question is, has TRANSCOM done an analysis or 
an assessment that you could provide to the committee that 
would show that you could meet the needs of the combatant 
commanders if you have a simultaneous reduction in those 
prepositioned stocks, and in a reduction in the strategic lift?
    General Fraser. Thank you, Congressman.
    And, specifically of course, have we done that analysis on 
the maritime preposition and the answer to that is no.
    I know there is a requirement out there. I know that the 
Navy and the Marines together are taking a look at this based 
on the direction that they have in the fiscal year 2012, in the 
AA [Authorization Act] language.
    I look forward to that report and the certification from 
DOD, and then, we will take a look at it.
    Mr. Forbes. And, General, my follow-up question is, you may 
not be even able to answer this but, don't we--aren't we 
starting to get the cart before the horse from some many of 
these things?
    Because it looks like to me that before the Navy would 
propose this reduction in our prepositioned stocks or before we 
would include in the budget that we are going to have a 
reduction in the strategic lift that we would have done an 
analysis by the major command that is going to have to get 
those assets there.
    And I don't know if you can even explain, maybe it is 
something that is not explainable but wouldn't it that make 
sense to do the analysis first and say, ``We can still get the 
assets to our combatant commanders before we make these 
recommendations and include them in the budget''?
    General Fraser. Congressman, we continue to take a holistic 
look on how we would provide support to whatever geographic 
combatant commanders requirements might be as we look forward 
to the future whether it is propositioned stocks, whether it is 
actually providing a sealift in order to get supplies there 
once we have indications and warning, whether it would be by 
sea or it be by air. We have done some initial analysis in 
looking at the strategic lift based on very sound analytical 
work that was done in MCRS 16 [Mobility Capabilities and 
Requirements Study 2016] and comfortable with the strategic 
lift reduction.
    Mr. Forbes. And, general, again, please understand I am not 
putting this on you, you have to play the cards you are dealt. 
I am just asking this question even in that holistic look we 
have had, there hasn't really been an analysis in that holistic 
look that we can still meet the requirements of our combatant 
commanders if we have a simultaneous reduction in our strategic 
lift and a reduction in those preposition stocks. Is that 
accurate?
    General Fraser. Sir, we are going to continue to evaluate 
this and take a holistic look. We have a lot of capacity within 
our commercial sealift partners too, as well as our craft 
partners, the civil reserve air fleet and that capacity that we 
have, we continue to adapt to the needs of the combatant 
commanders in order to meet that. I will give an example, where 
our craft partners stood up and gave us more capacity----
    Mr. Forbes. And, General, I don't want to cut you but we 
only----
    General Fraser. Yes, sir.
    Mr. Forbes [continuing]. Have 20 seconds left but wouldn't 
it be fair to my question that we haven't done the analysis 
though to make sure we can meet those combatant commanders' 
needs if we do both the reduction and preposition stock and 
strategic airlift?
    General Fraser. I have not specifically done that scenario. 
I have done the scenarios which I have been asked to look at, 
Congressman.
    Mr. Forbes. And thank you, General, for your work. And, Mr. 
Chairman, I yield back.
    The Chairman. Thank you. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman, and good morning, 
gentlemen. I thank you all for being here this morning and I 
commend you for your leadership over your respective commands 
in what we all know are very challenging times.
    I wanted to turn again to the issue of Afghanistan. I 
oppose President Obama's initial request for supplemental 
funding for the surge for an additional 30,000 troops because I 
had questions about our strategy in Afghanistan and Pakistan 
that I felt went unanswered.
    And I still believe we could do everything right in 
Afghanistan a challenge in itself but if Pakistan, a very 
uncertain ally, did do not do his part, our efforts in 
Afghanistan would be seriously undermined.
    And while the Defense Department should be congratulated 
for establishing a time line and benchmarks for success, I 
believe this time line is overwhelmingly dependent on the 
capabilities of the Afghan National Security Forces.
    So, General Mattis while I am pleased that the Afghan 
National Security Forces have taken the lead in seven areas 
representing more than 25 percent of the population, I remain 
concerned, as I am sure we all do by the repeated incidents of 
Afghan soldiers turning their guns on coalition forces.
    According to a January 17 article in USA Today, since 2005 
more than 50 ISAF troops have been killed and 48 wounded by 
Afghan troops. This attack on NATO advisers in the Afghans' own 
Interior Ministry 2 weeks ago was particularly alarming, since 
presumably anyone allowed inside would have the highest 
clearance levels.
    I would echo the comments of one senior Afghan general who 
said these attacks are ``A nightmare that refuses to go away.'' 
These horrific incidents create mistrust and frustration 
between NATO personnel and their Afghan counterparts.
    And in a visit last year to Afghanistan I met with one of 
our young soldiers and such an incident had just taken place 
and he talked about the very chilling effect it had. It 
certainly undermines a partnership that is key to furthering 
our strategy to eventually transfer responsibility over to the 
Afghan security forces.
    So, can you tell me what kind of vetting procedures we have 
in place today for Afghan security personnel; how do we, for 
example, address challenges such as the fact that is common for 
Afghans to go only by one name, making the vetting process as 
challenging?
    And in the aftermath of this recent attack, are any of 
these procedures being modified?
    General Mattis. Yes, Congresswoman, they are being 
modified. The vetting procedures are not precluded by the 
single name, for example, we get statements from village elders 
who know the young men and ask if they are men of good 
character, they don't have psychological problems, the kind of 
things that would be known by local leaders, not by a screening 
test that would be imperfect in a country where literacy is so 
low.
    We have unprecedented cooperation from the Afghan 
authorities on this issue; you are quite right, they see it too 
as a nightmare that they have got to stop. On the point I would 
make is the Afghan security forces, ma'am, are not defined by 
these occasional tragedies.
    We have tens of thousands of Afghan boys fighting alongside 
us. We have our Special Forces sleeping alongside them at 
night, and our partner conventional forces going on patrol 
alongside them. And while these tragedies show that treachery 
in war is something that has always existed, it does not define 
the organization at all.
    More Afghan boys have died as the result of this sort of 
thing in a society that has been turned upside down by the 
Soviets some decades ago and a Kalashnikov culture found its 
way inside that society.
    Violence has become too often the norm. That is one of the 
things we are trying to turn back. But in Afghanistan right 
now, it has not stopped us in our tracks that over our 
strategy, of course we are taking prudent measures and of 
course we are adopting those measures.
    Ms. Tsongas. I have a follow-up question, the same USA 
Today article reports that since the later part of 2011, 
military commanders in Afghanistan no longer make public the 
number of allied troops killed by Afghan soldiers and police. 
Obviously, when there is a very visible incident, we are aware 
of it.
    Can you talk about the rationale for this change in policy 
and if we have run out of time, I will take it for the record.
    General Mattis. There is no change, ma'am. We notify 
Congress, we notify the Department of Defense, we notify the 
families on every case where there is a casualty whether it is 
an accident or what we call a green on blue what you are asking 
about enemy KIA [killed in action].
    You know, this killed in action, that article is not 
correct. We notify all of our chain of command and the families 
when we take casualties.
    Ms. Tsongas. Thank you, sir.
    The Chairman. Thank you. Mr. Wilson.
    Mr. Wilson. Thank you Mr. Chairman, and thank you all for 
your service. And as I begin, General Mattis, I want to thank 
you for explaining the relationship that our troops have with 
the Afghan security forces.
    My former National Guard Unit, the 218th brigade of South 
Carolina led by General Bob Livingston, worked very closely in 
helping train the army-trained police units. And they really 
developed at appreciation of their Afghan brothers, so it is an 
aberration as you explained of what has occurred.
    I am really grateful, just 2 weeks ago I was on the House 
Democracy Partnership delegation with Congressman David Dreier 
and we visited Pakistan. And I was very pleased, we had a very 
warm meeting with the Prime Minister, the Chief of the--the 
Chairman of the Senate, also the Interior Minister.
    It was very positive. And then, that is such an important 
country for mutual agreements to be working together. So, what 
is the status of our resuming relationship with the Pakistani 
Army and Military?
    General Mattis. Congressman, you know, in a couple of weeks 
I will be flying back out there but the bottom line is 
following the tragedy that occurred on the cross-border fires 
in late November, the parliament troop under consideration a--
an investigation into what had happened and a determination of 
what sort of relationship they want with us in the future.
    Now, Congressman as you know, this has been a challenging, 
it is a crucial relationship but it has been a challenging 
relationship and it has been prone to recriminations on both 
sides but the bottom line is that this is a critical 
relationship, as complicated as it is, and they have just come 
out of support of reconciliation in Afghanistan, that is a 
first, by the way, the Prime Minister made the public statement 
here a little over a week ago.
    And I think that we are on track to start recovering some 
of the ground lost under some of this incidents that have 
occurred.
    Mr. Wilson. Well, I appreciate it is for the mutual benefit 
of the people of Pakistan, Afghanistan and America, also 
security for India having a stable Pakistan is my view.
    Another country that has truly impressed me is Bahrain, and 
I have visited there and was very happy to find out that our 
countries have had a relationship over a hundred years, with 
the country of Bahrain establishing hospitals and of course the 
Fifth Fleet, Admiral, we are very proud over 50 years.
    And so many Americans just do not know that we have had 
such a long-term association and partnership and I would like 
for either one of you to explain why Bahrain is important for 
U.S. security interests.
    General Mattis. First Congressman, it is my only main 
operating base in the region. That is the only one that I have 
for central command in the entire Middle East region. And I 
think when we look at the necessity for the international 
community to carry its responsibility for security in the Gulf 
area, that base becomes absolutely fundamental to our foreign 
policy, to the world's economy and to the stability we are 
trying to maintain.
    And Bahrain has shown, we know they have had some problems 
over the last year. They have shown they can learn from their 
mistakes and I think they have earned our support.
    Mr. Wilson. And I am really grateful, I represent Hilton 
Head Island and my first visit to the Persian Gulf States, 
including Bahrain, I felt like I was seeing Hilton Head on 
steroids. And it has really been frustrating to me, so many 
people in America feel like people in Middle East want to 
evolve back to the 14th Century and that is not true. So, thank 
you for your efforts there and Admiral, the SOF capabilities 
are so important to our country.
    What is the status of our working with our allies? Are they 
keeping up, particularly NATO?
    Admiral McRaven. Sir, they are. Back in 2006 with the 
support of NATO, we established the NATO SOF coordination 
center which several years later became the NATO SOF 
headquarters which it is now.
    The U.S. is the framework nation for the NATO SOF 
headquarters. We have a three-star U.S. General that is the 
NATO officer in charge of that SOF element. They do an 
absolutely magnificent job.
    About 250 some on folks on the staff there, they provide a 
lot of the training and the education for somewhere in the 
neighborhood of the 22 NATO SOF and NATO alliance countries 
that are part of that SOF alliance.
    Just to give you an indication when the--in 2006, when we 
stood up a NATO SOF coordination center, they were about 300 
NATO SOF members in Afghanistan, now there are over 2200 NATO 
SOF in Afghanistan.
    And while I can't make the direct linkage, I can tell you 
that by coming together as a NATO SOF element at the NATO SOF 
headquarters, there was a sense of commitment, there was a 
sense of understanding at the SOF level and what needed to be 
done.
    We have a number of courses that we train and that we teach 
there at the NATO SOF headquarters that teach to the NATO 
standards. So, when these folks do deploy forward, we are very, 
very confident at that capability.
    Mr. Wilson. Thank you.
    The Chairman. Thank you. Mr. Garamendi.
    Mr. Garamendi. Thank you Mr. Chairman and gentlemen thank 
you for all that you do for this Nation.
    A couple of questions, General Mattis, in your testimony 
there was no information about the contingency fund for 
Afghanistan, perhaps that is for a later hearing but could you 
tell us what is the potential expense for 2013, 2014 and 
beyond.
    General Mattis. Congressman, I will have to take it for the 
record, it is a critical fund for what we are doing there in 
terms of our counterinsurgency campaign but I need to get 
specifics for you, I don't want to give you general ballpark 
figures, sir.
    [The information referred to can be found in the Appendix 
on page 127.]
    Mr. Garamendi. Well, I certainly would appreciate that and 
I suspect the numbers are pretty large.
    General Mattis. They are, sir, and they are in my testament 
for the appropriations committee but I didn't think to put them 
in your--I will correct that.
    Mr. Garamendi. Thank you and I would appreciate that. 
Admiral McRaven, you have sufficient ISR assets to carry out 
the tasks that you have discussed here and in your written 
testimony.
    Admiral McRaven. Sir, we do. We are very well served by our 
ISR assets that we get both from the SOF ISR capability and 
from the conventional support. So, for example, in 
Afghanistan--but I don't want to talk specific numbers of 
orbits here--suffice to say, we are very well resourced with 
ISR.
    Mr. Garamendi. Some of those ISR assets are being retired.
    Admiral McRaven. Sir, none of the ISR assets that I use 
currently are being retired.
    Mr. Garamendi. I think we have information that some are 
going to be retired, some of the platforms that are operating 
out of Beale Air Force Base, for example.
    Admiral McRaven. Sir, the--I used primarily the MQ9s, the 
MQ1s and then we have a large fleet of manned aircraft, small 
manned aircraft. Those to the best of my knowledge, the orbits 
are not going away.
    I will continue to get the orbits that I need whether or 
not the individual platforms are being modified such as the 
MQ1; that I will have to get back to you on, sir.
    Mr. Garamendi. Please do. And I would like some specific 
information on how those assets are used in the Horn of Africa.
    Admiral McRaven. Sure.
    Mr. Garamendi. And Congo.
    Okay, back to you General Mattis, a recent New York Times 
article indicated that there may be some discrepancy in the 
reporting of the success or failures in Afghanistan.
    Are you familiar with that article?
    General Mattis. Not in particular, sir. I have read 
articles alleging that sort of thing but I don't--sir, we are 
very confident that we given a rigorous analysis when we make 
our assessments of how we are doing there. And just the fact we 
have been so reluctant over many years to say that we were on 
the right track.
    And now, we can ensure right down to the district level how 
it is going. It shows the detailed rigger that we have put into 
this and we don't assess it simply from an episodic role.
    We talked to the sergeants and the captains on the ground. 
We talked to the Afghans on the ground. We are very confident 
that we have got as good as an objective and subjective melded 
together assessment can give us.
    Mr. Garamendi. So, therefore, we should have confidence in 
the information that we receive from the Department of Defense.
    General Mattis. Absolutely, sir.
    Mr. Garamendi. Okay and my questions end there. Thank you 
very much.
    The Chairman. Thank you. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. Gentlemen, thank you 
for your service and your commitment.
    General Mattis, over the past several years, I have tried 
to focus my attention on the Afghan narcotics trade as a major 
source of funding for the insurgents.
    In 2006, General James Jones, then the Supreme Allied 
Commander of Europe, stated, ``The Achilles heel of Afghanistan 
is the narcotics problem.'' He went on to state, ``I think the 
uncontrolled rise of the spread of narcotics, the business that 
it brings in, the money that it generates, is being used to 
fund the insurgency, the criminal elements, anything to bring 
chaos and disorder.''
    In 2012, the United Nations Office of Drugs and Crime 
published a study showing that the opium production rapidly 
increased in Afghanistan from the period of 2006 to 2010.
    And gentlemen I have shown you this chart before, this is a 
chart from CRS [Congressional Research Service] that basically 
expresses that period. It shows the peak; I am fond of folding 
this chart in half because it shows that what we are dealing 
with is a spike that exceeds the--what is the historical level 
of production of previous periods.
    So, we saw from that period a nearly doubling of 
production. In a recent correspondence with General Allen, he 
told me that, ``The narcotics trade and its linkage to the 
insurgency contribute to regional insecurity, corruption, 
volatility in the rule of law and the stagnation of economic 
development.''
    General Petraeus agreed that it was a serious problem, 
noting that the trade financed roughly one-third of the 
Taliban's funding. In an attempt to confront this issue. I have 
discussed this issue with you, General Mattis, President 
Karzai, General Petraeus, General Allen and the DEA [Drug 
Enforcement Agency], just to name a few.
    And in response to my question on this issue last year, you 
stated, ``The U.S. Government and other international partners 
including the Afghans are reducing poppy cultivation and opium 
production in Afghanistan. Our intra-agency counternarcotics 
strategy supports a comprehensive set of actions to reduce 
opium productions.''
    This strategy includes a public information campaign, good 
performance initiative, complimentary efforts in law 
enforcement and justice capacity within the narcotics police, 
Afghanistan's specialized unit such as DEA sponsored national 
in addiction and special investigative units and collaborate 
work with USAID [U.S. Agency for International Development].
    I compliment you on your leadership on these efforts as 
they appear to have had success. The United Nations Office of 
Drugs and Crime, April 2011, winter poppy assessment 
demonstrated a decrease in 2011 poppy production.
    Further in correspondence with General Petraeus last year, 
he told me that his forces, ``Have seen a 48-percent increase 
in, excuse me, a 48-percent decrease in opium production in the 
first quarter of 2011 and that they saw a 341-percent increase 
in drug seizures compared to the same period a year ago.''
    So, I can hold up this new chart and which I also fold in 
half which shows that the spike downward. And if you fold it in 
half and look at that period that we were concerned with, you 
can see that we have once again return to a lower level that is 
more historic.
    And the chart that General Petraeus says has shown the 
spike of the seizures of the drugs have had a huge impact. 
Okay, now, while I find these trends reassuring, I am concerned 
that the premature drawdown of U.S. and ISF forces in 
Afghanistan may reverse this trend and allow the insurgence to 
regain this lucrative source of funding.
    Now, General Mattis are we still pushing these programs to 
the degree that you indicated in your response that we received 
in August or are we still seeing the same positive results?
    Do you anticipate that these positive results will continue 
as we draw down our forces? Does the Afghan army have the 
capacity to address these counternarcotic efforts?
    And if this administration ignores the advice of its combat 
commanders, what do you anticipate happening to the 
counternarcotics efforts in Afghanistan in the future, can we 
continue to see this lower level of poppy production? General.
    General Mattis. Congressman, this is an intimate part of 
going after this insurgency and I would agree with the one-
third of their funds were coming, we are sure, from the poppy 
trade. So, we have got to get our handle on it.
    Also, this criminal patronage network that is funded by the 
various drug producing, whether it would be the facilities, 
where they refine it, the network that gets it out of the 
country and the return, the money coming back in that then 
poisons all the local people who see the lucrative nature of 
this and so they are drawn away from legitimate crops and this 
sort of thing.
    This is all having a rot effect on Afghanistan. The result 
is that we stay unrelenting in our pursuit of this criminal 
patronage network whether it is specific to the Taliban or it 
is simply a feeder into the Taliban. It is still part of our 
targeted enemy.
    We have also got a much stronger international effort going 
on right now and that grows each year, this is a regional 
problem, as well as an Afghanistan problem. So, the answer is 
that we will create an Afghan National Army, Afghan national 
police that has this capacity if we continue on the track we 
are on right now. Yes, sir.
    Mr. Turner. Thank you very much.
    The Chairman. Mr. Johnson.
    Mr. Johnson. Admiral McRaven, as you know this much 
speculation about timing and nature of drawdown, in 
Afghanistan, including the possibility that we will shift to a 
model with substantial special operation forces remaining in 
the country would be subordinated to the CIA [Central 
Intelligence Agency] and operate under title 50 authority, as 
they did for the bin Laden raid is and this has been reported 
in the Associated Press on March 3rd, as coming from high-level 
Pentagon officials which I assumed to be one or all of you all.
    Is my assumption correct and are these reports true?
    Admiral McRaven. No, sir. The reports are false. We have no 
plans right now to put Special Operations Forces under title 50 
in Afghanistan.
    Mr. Johnson. So, no plans at the present but assuming that 
did become operational at some point in the future, it would 
raise complex oversight questions and if such a plan was put 
into effect, at what level of specificity would the Department 
of Defense be required to report such use of Special Operations 
Forces under CIA command to this committee?
    Admiral McRaven. Sir, all I can tell you is right now, we 
have no plans to do that. Now, the Special Operations Forces 
work routinely with the Intelligence Community and we do 
occasionally partner or we do partner with the CIA.
    And occasionally, we will put SOF operators with the CIA in 
very small numbers as required; that oversight goes through the 
normal CIA oversight channels. So, whatever SOF personnel are 
assigned to the CIA, then the committees will have full 
visibility over those personnel and those measurements.
    But right now, again, there are no plans, absolutely no 
plans right now to put Special Operations Forces under title 50 
in Afghanistan either now or for the future that I am aware 
off.
    Mr. Johnson. Well, there is nothing that would ban such a 
plan from being implemented at this time. But let me ask the 
question this way Admiral: Is the military required to report 
to this committee specific operations conducted by Special 
Operations Forces under CIA command?
    Admiral McRaven. Sir, I can certainly talk about specific 
incidences but I would prefer to do that in a more closed 
session, if we could.
    Mr. Johnson. Well, I am not looking at specific instances. 
I am just looking at generally policywise. Is there any 
requirement that you know of that would require you to report 
specific operations to this committee, to the House Armed 
Services Committee, as opposed to the Intelligence Committee?
    Admiral McRaven. Yes, sir. Sir, what I can tell you----
    Mr. Johnson [continuing]. Actually the Defense Department 
would not be required to report to the Intelligence Committee 
but would it be required to report to the House Armed Services 
Committee?
    Admiral McRaven. Sir, if it is an intelligence operation 
then it is reported to the Intelligence Committee. So, if it is 
under CIA as an intelligence operation, then it is reported to 
the Intelligence Committee.
    If it is under title 10 and it is a special operation 
mission, then it is reported to the Armed Services Committee.
    Mr. Johnson. This and of course, the House Armed Services 
Committee does have budgetary authority over the Special 
Operations Command but apparently, there is no restriction on 
special ops being able to pass off if you will, the operational 
authority for special operations and its forces to the 
Intelligence Community which is more than just the CIA.
    No restrictions on that and thus if that happens then there 
is no report that is required----
    The Chairman. The gentleman's time has expired.
    Mr. Johnson [continuing]. Committee and thank you and we do 
we get----
    The Chairman. Mr. Smith and I get briefings at a higher 
level of what they do.
    Mr. Johnson. There is no way that we can or no requirement 
that the committee as a whole in a secret session if that is 
what it require--requirement that we----
    The Chairman. Mr. Johnson, we can talk to you about that 
after.
    Mr. Johnson. Okay, thank you.
    The Chairman. Thank you. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. General Mattis, 
Admiral McRaven and General Fraser, thank you so much for 
joining us today. Thank you for your leadership and leading the 
best military the world has ever known. We deeply appreciate 
that.
    Admiral McRaven, I want to begin with you and looking at 
where we are in Afghanistan with the pending drawdown on 
conventional forces and looking at the redirection or 
refocusing strategy where SOCOM's manning, their budget, their 
operations roles are going to increase.
    It appears highly likely that SOCOM's presence--Special 
Operating Forces presence in Afghanistan is going to continue 
past 2014. With that being said, we know that enablers have to 
be there to support our Special Operations Forces.
    We know today with conventional forces there, there is a 
pretty robust number of enablers there and a depth of enablers 
there. My question is this, going forward as conventional 
forces are drawn down, who will be the enablers for our special 
operators there in the theater?
    Are there going to be enough special operators? Are they 
going to have the depth necessary to make sure special 
operators have all that they need in those particular 
circumstances?
    And I am going to lead that into another question and turn 
it over to you. General Mattis had stated previously that the 
insurgency remains both resilient and capable, so we must 
remain vigilant and resolved as our gains are reversible.
    The fear is that as conventional forces draw down and our 
special operators have more tasks there in theater that they 
get spread too thin, and that they don't have that support 
group, those enablers there.
    The question is are we getting to a point where we are 
asking our special operators to do so much in a time where we 
know, the Taliban is going to be pretty active in seeking out 
where weakness is, not just with the Afghan forces but seek out 
where weaknesses may be in our forces as the support forces for 
the Afghans.
    Can you tell me, are we putting ourselves in peril with the 
situation we are putting our special operators in and specially 
based on General Mattis' comments?
    Admiral McRaven. Sure, Congressman and first, I will 
address the enablers issue. Special Operations Forces deploy 
with a certain set of enablers, primarily our ISR requirements 
and a lot of our helicopter lift and some of our internal 
CASEVAC capabilities.
    So, we are fairly robust when we deploy. Having said that 
as you pointed out, we do rely quite a bit on the Services 
there for things like route clearance packages, if we are 
moving from point A to point B.
    The Services do provide some additional helicopter assault 
forces and some additional ISR. So, as the forces begin to draw 
down, we will be in constant dialogue with the General Allen, 
General Mattis, and our ISAF partners to ensure that the right 
level of enablers are there.
    And we have been having these discussions for quite some 
time, recognizing that the President has already made the 
decision to move down to 68,000 on the U.S. side. So, I am 
pretty comfortable that we are having good discussions on this 
and that all the right folks understand what our requirements 
will be as we stay in Afghanistan to 2014.
    On the issue of the fact that the insurgency will remain 
resilient and capable, it is worth recognizing that as we ramp 
up to about 352,000 in terms of the Afghan National Security 
Forces, that force will take on the bulk of the fight against 
the insurgency.
    On the SOF side, as you know, we are training the Afghan 
commandos, the Afghan Special Forces. We have Afghan partner 
units and then, of course, our local police, the NATO SOF folks 
are training a lot of folks as well.
    So, as we look at the drawdown occurring, the expectation 
and I think a very real expectation, is that our Afghan 
partners will step up as we provide them increased capability 
and they will be able to take a lead and do the job himself.
    Mr. Wittman. Very good. That is going to lead me into the 
next question. You talked about the challenges and the role of 
our special operators play. I know that there are two critical 
missions there, the village stability operations and also 
training the Afghan Local Police.
    With special operators, they will be making up about 8 
percent of the force as there, as this transition occurs and we 
are putting more and more emphasis on the Afghans to be able to 
take up some of these responsibilities, hoping that they are 
able to assume then our conventional forces leaving.
    It seems like to me there is more focus and there is much 
more pressure on our special operators that if things don't go 
as planned with the Afghans, both local police and the ANSF 
[Afghan National Security Forces].
    Where does that leave your special operators? In other 
words, if they are placed in a situation where things starts to 
decay a little bit, is the capability there with them only 
being 8 percent of the total force structure that are there now 
and then they are going to carry a much greater share of the 
load, under what probably is going to end up being some pretty 
challenging scenarios.
    Can you tell me where you feel they will be? Are they going 
to be properly supported? Are we going to make sure that we are 
not asking too much of them in that situation?
    The Chairman. Gentlemen, the time has expired, if you could 
submit that to the record please.
    [The information referred to can be found in the Appendix 
on page 127.]
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you very much, Mr. Chairman, and thank 
you to all of you and your very challenging positions that you 
hold.
    I want to just follow up very quickly on the sustainment 
issue because I know that, you know, the American public 
certainly understands that the Afghanistan Government is not 
able to support their military monetarily now and probably not 
into the distant future.
    Where do you see those resources coming from, the 
international community as a whole has been providing those 
with us in the lead, do you see that being sustained and if 
not, how are we going to sustain the rest of the military?
    And I think just to that, the NATO enablers and the issues 
around logistics from on the score of one to five, I guess, 
where do you see the logistics capability now and their ability 
to maintain their own logistics, but going down the line even 
some of the infrastructure that has been put in?
    General Mattis. Congresswoman, as the President stated, we 
are not going to abandon Afghanistan in 2014, so it begs the 
question how we are going to sustain this in the long term, so 
Afghanistan does not again become a haven for the kind of 
attack we took on 9/11.
    I think the international community will have to sustain a 
fairly robust aid network going into Afghanistan but at the 
same time, Afghanistan is starting to get some economic 
vitality showing up from extraction industries and other, an 
education system that is going to turn out people directly 
employable to do things that are more than just subsistence 
farming.
    Certainly, agriculture has a great potential to create more 
wealth; at one time, as you know, Afghanistan exported food 
outside exporters. I think too that logistically, we have put 
in place logistics schools for the military, so they can 
maintain the military infrastructure and equipment we are 
giving them.
    All of this is in its nascent stages of course because we 
have to start from such a low starting point in the country 
where literacy and any kind of governmental organization was 
totally lacking.
    So, it is going to be difficult. I think the international 
community will have to continue but it will taper off too as 
inside Afghanistan, some degree of an economic basis actually 
gets started, gets rolling there.
    Mrs. Davis. Thank you. If I could I am just going to switch 
to Syria because I want to give you a time to respond to that 
as well. Could you comment on the security of the Syrian 
chemical weapons, what do we know about that? What can you 
share with us?
    General Mattis. In open session, ma'am, we think the 
chemical weapons are secured right now. We have seen no 
indications of use against their own people at this point but 
it is something that we are keeping a very, very close eye on.
    Mrs. Davis. Could you comment as well on the security 
situation in Syria and how it affects Iran; how that landscape 
might change if in fact Assad stepped down or was removed from 
office.
    General Mattis. Well, when Assad goes, ma'am, and he will 
go, I don't know if it will be next month or it will be some or 
a longer period of time when he goes it will be the most 
significant strategic setback for Iran in 20 years.
    Mrs. Davis. Okay. That is as much as you would like to 
share this time?
    General Mattis. Well, the thing is, ma'am, I think the 
situation, the tragedy that is unfolding there and Assad's 
willingness to use force and a lot of force against this people 
would certainly--it is convincing me the situation probably is 
going to get worse there before it gets better.
    And it is going to take some kind of an international, 
regional solution.
    Mrs. Davis. Okay. Thank you. And finally, just if you could 
comment on leveraging the expertise and the capabilities of 
others, of all of our men and women who were serving obviously, 
there have been tremendous changes in the role of women as they 
have been engaged in Iraq and Afghanistan.
    And there is a report that suggests that women can serve in 
many more positions. I know that the Services are looking at 
some physical standards that would affect them.
    How--what would you like us to know about that role and how 
you see it changing? We are continuing to train women in their 
role in Afghanistan and yet we are also looking to exit. But 
how do you see that continuing to engage women in a very 
different role when they played in the past?
    General Mattis. Ma'am, as the combatant commander, I can 
just say that the Armed Services, Army, Navy Air Force, Marines 
have given to me men and women who are superbly trained.
    I think we have got it about right in terms of the 
employment of the women. I don't have any demands signal to go 
one way or another. I think the Services are giving me what I 
need at this time.
    Mrs. Davis. Thank you.
    The Chairman. The gentlelady's time has expired. Dr. Heck.
    Dr. Heck. Thank you, Mr. Chairman, and thank you, 
gentlemen, for your service, as well as for the service of 
those that you command.
    General Mattis, as you yet stated a little bit early that 
you expect that it is going to be the Afghan National Security 
Forces that will kind of seal the operational void as we draw 
down.
    But yet recent data reveals that of the Afghan National 
Army units assessed, only 36 percent are effective 
independently or with purely advisory support, that only 44 
percent of the Afghan National Police battalions assessed were 
similarly effective.
    So, how confident are you that the Afghan National Security 
Forces will be capable to assume that responsibility?
    General Mattis. Congressman, I am relatively confident. It 
is hard standing up an army in the middle of a fight against an 
enemy that even goes after women and children.
    Creating an ethical force under those conditions is a 
challenge, but what we have found, for example, we wanted to be 
at 352,000 by October, to have them at full strength finally.
    We are going to be there within 60 days. Afghan boys are 
willing to fight. We want them to fight right. We want them to 
fight well. And certainly, there are challenges standing up 
these units in putting them right into combat.
    We learned that in World War II and Korea in our own army. 
But at the same time, I am relatively confident that this is on 
the right tract.
    Dr. Heck. Thank you and then, Admiral McRaven, the fiscal 
year 2013 budget request decreases funding for the undersea 
mobility programs 62 percent from $68 million to $26 million.
    Given the current and aging fleet of SEAL [Sea, Air, and 
Land] delivery vehicles and the fact that we have significant 
capability gaps in that area, what are some of your concerns 
with this funding decrease and how is it going to impact our 
ability to contribute to the anti-access, area denial mission 
areas?
    Admiral McRaven. Sir, thank you. I have taken a hard look 
at our undersea mobility program and actually as we went 
through the budget drills for fiscal year 2013, I felt we could 
assume a little bit of risk in our light submersible program 
recognizing that we have recommended a medium submersible 
program that we think we will cover down on that gap as you 
talked about for the area of denial piece.
    So, I think with the current SEAL delivery vehicles we have 
and we have some modifications that we are making to those, 
along with the recommended budget that will include the medium 
submersible program but that gives us the capability we need 
within naval special warfare.
    Dr. Heck. Thank you, thank you. I yield back, Mr. Chairman.
    Mr. Thornberry. [Presiding.] Thank you. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Thornberry, and thank you, 
gentlemen, for your testimony.
    General Mattis, there is starting to be some growing voices 
about airstrikes--U.S.-led airstrikes in Syria and you in your 
testimony talked about how challenging that country's situation 
is for our military.
    I mean, looking last year in terms of Odyssey Dawn, I mean, 
our military did a magnificent job, sort of coordinating with 
NATO. You know, an operation that at least superficially would 
seem to be similar.
    I just wonder if you could maybe talk a little bit more 
about what you see as the challenges because certainly it is on 
the talk shows every Sunday lately.
    General Mattis. Congressman, each operation is unique, of 
course, and we have to be careful about templating an 
operational approach to a unique situation.
    Our challenge in Syria is that with Assad's willingness to 
murder his own people, we are in a situation where we sense we 
have to do something to stop this.
    I provide options to the President. I can just tell you 
that options such as working with the Syrian opposition, we 
would have to perhaps get a little more fidelity, so we know 
who exactly we are working with and then look at the end state 
we are trying to achieve and come up with regional partners, 
the best in international partners, the best possible way to go 
forward.
    I think right now, the effort to bring increasing 
diplomatic and economic pressure on the Assad regime are 
exactly the right way to go.
    Mr. Courtney. Well, thank you. I am glad that you at least 
stated clearly that, you know, the situation is intolerable and 
we can't just sort of watch. I mean, we got to do more than 
that but--and certainly, you know, hopefully this other tools 
are going to effect some change there.
    In your testimony regarding Pakistan, again, you sort of 
articulated support for some of the assistance that we are 
still providing there.
    And, you know, I have to share with you that I have been at 
VFWs [Veterans of Foreign Wars posts] lately where, you know, 
staunch, pro-military veterans come up to me and rather angry 
about the, you know, the events that we saw unfold in 
Abbottabad and what, I think, most people think was clearly a 
situation that the Government there was aware of.
    Admiral Mullen's testimony regarding the Haqqani Network's 
connections to Pakistani intelligence and the question is posed 
to me at these meetings, like why are we providing any support 
for this government?
    I thought maybe, you know, I got a couple of minutes left 
on my time here, you could articulate for people who again, are 
not hostile to your mission but really question, you know, what 
is the value here.
    General Mattis. Congressman, the questions are valid.
    The point I would make is in this, it is a very challenging 
but a crucial relationship that we maintain with Pakistan. I 
have looked at the evidence, and I do not believe anyone in 
authority was aware that Osama bin Laden was in Abbottabad.
    And I am not reluctant to say what I think. I am rather 
well-known for saying what I think.
    I don't think that they knew about it. We are going to have 
to sustain a workable relationship and, for example, along the 
border, there is collaboration going on. Now, it is not 
complete and it is not at the level we want.
    There are disagreements on some aspects of who is the enemy 
and who is not. And over years, some of this has shifted below 
both of our feet, but the threat that the enemy projects is a 
threat to Pakistan, as much as it is to Afghanistan.
    The Pakistan military has taken a lot of casualties. They 
probably have lost more people in this war than NATO combined 
has lost. So, my point would be that we continue to search for 
the common ground.
    We fight in many cases in a collaborative way. I could not 
have gone in, in 2001 to southern Afghanistan, absent 
Pakistan's support. I would not have--I needed their support.
    So, it has not been perfect by a long sight and certainly, 
we have got to overcome some of the recriminations from both 
sides that have characterized the relationship.
    I think in the long term, the shared requirements we both 
have to address this situation will find us more common ground 
that we can work from.
    Mr. Thornberry. Mr. West.
    Mr. West. Thank you, Mr. Chairman and thank you, gentlemen, 
for being here.
    I want to try to get a question to each and every one of 
you.
    First of all, General Mattis, when you look at your SOCOM 
AOR [area of responsibility], what is your assessment of the 
resulting unintended consequence of going to no credible, no 
viable, no military presence--U.S. military presence in Iraq?
    General Mattis. Congressman, in Iraq we now have a State 
Department-led effort. I have a Lieutenant General there with 
an Office of Security Cooperation, with several hundred U.S. 
military but even a larger number of contractors who help on 
bringing in the equipment that they have purchased, training 
them on that equipment.
    We are also working around the region, for the regional 
militaries to invite the leadership from the Iraqi military to 
countries exercises around the region, so we get them out of 
their pariah status.
    We have pretty good relations. We have very good relations 
because of the years we spent fighting together and we are 
going to try to sustain those. So, we don't take those kinds of 
costs that could come from the lighter footprint.
    Mr. West. Thank you very much.
    Admiral McRaven, one of the privileges I had was to command 
a battalion in Iraq in 2003; as a matter of fact my XO 
[executive officer] is sitting right there but now Colonel Rich 
Root, you know, one of the key tasks that we had was to provide 
an outer cordon for special operations direct missions that 
were going on.
    And that is one of my concerns and I think you heard that 
here and talk about their relationship between conventional 
forces and special operations forces. So, is that going to be a 
consideration as we draw down? I understand we are working very 
well at the VSO [Village Stability Operations] programs, 
working well with the Afghans special operations commando 
units.
    But I think there is still as a comfort of the Special 
Forces, elements having an American conventional force that can 
provide some type of security or outer cordon.
    So, will we make sure we consider that as we go through the 
drawdown leading up to 2014?
    Admiral McRaven. Sir, we will absolutely consider it and 
again, General Allen and General Mattis and I have these 
discussions quite frequently about what is the right balance 
between the SOF element out there and the conventional forces.
    And you are probably happy to know, we actually have two 
conventional battalions that are assigned through the SOF 
elements out there, helping with the VSO program and they have 
been very successful at that.
    So, as we move forward in recognizing what that balance is, 
as the numbers draw down will be crucial, but I am happy to say 
that the dialogue is very strong. And I am very comfortable 
that as we move forward in that direction, we are going to get 
that right balance.
    Mr. West. Good and General Fraser, as we look at this 21st-
century battlefield and the enemy is always going to be in 
tough spots and it was very difficult for us to get to.
    Are we looking at logistical and transportation networks 
that enable us to be a little bit more expeditionary, so that 
we don't have to come and depend upon questionable countries 
such as Pakistan?
    Because I think that, you know, we talked about last time 
when you were here General, the littorals and how we can, you 
know, deploy and get into these areas without having a big 
logistical footprint.
    So, is there some move we can look to see in that in 
TRANSCOM?
    General Fraser. Absolutely, Congressman.
    We take a look at that from an en route infrastructure 
perspective and where we have access. And I am very pleased 
with a recent report that we have completed called the ``En 
Route Infrastructure Master Plan'' that we put in; it is a 
global look where we are going to have access, where we need to 
make investments, and where we need to partner.
    And I think as we go forward and continue to exercise and 
work with the ground component commanders in their exercise 
program, this will both trust and build confidence, also build 
partnership capacity. And potentially, maybe the opportunities 
to get engaged in other airfields, other seaports, other things 
of this nature, but I am confident that we have got a solid 
plan, it is a balanced plan too.
    Mr. West. Very well, and gentlemen please give all your 
soldiers, sailors, airmen, and marines my best. Thank you very 
much and I yield back, Mr. Chairman.
    Mr. Thornberry. Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman. Welcome all of you 
today and especially to Admiral McRaven, I would like to 
recognize your previous headquarters of being at Ft. Bragg, the 
justified center of the universe as we would refer to it.
    General Fraser--some while back, we got word from our Air 
National Guards that somebody wanted the C130s and that was 
diverted and I just wonder with our airlift change in 
capacities, do our Air National Guard folks need to worry about 
their C130s again?
    Admiral McRaven. Congressman, I don't have any of the 
specifics that you are referencing there. I know that the Air 
Force is taking a look and has a proposed bed-down plan with 
respect to all of their assets.
    And I can't pass up this opportunity to thank and 
appreciate all the contributions that all the guardsmen and the 
reservists provide to us. So, we are a Total Force and we in 
TRANSCOM are the recipients of that on a day-to-day basis and 
very much value their contributions.
    Mr. Kissell. If something happens, where they should be 
worried, give us a heads-up on that one, please.
    General Mattis, we had a--recently some situations in 
Afghanistan resulting from how certain materials at a prison 
was handled. And I had some conversations with somebody who 
talked about that one of the good things coming out of that, is 
the Afghan army took the lead in kind settling that situation 
and that there is a commission including some of the people 
from the religious part of Afghanistan to investigate and see 
what happened. And also towards the long-term effect if any--
kind of where does this situation stand now?
    General Mattis. Congressman, it was a very unfortunate, 
inadvertent mishandling of the religious materials, but the 
performance of the Afghan security forces--disciplined, 
restrained--was pretty magnificent under these kind of stresses 
when you are actually having to stand against your own people.
    It is a tough situation, they were in a word magnificent in 
carrying out their duties and standing with us and restoring 
calm.
    Right now, there are three investigations under way; one is 
by the U.S., since there are certain orders that we give in 
SOF's that we insist on. We have to look at our own culpability 
and were any of our procedures, our commanders' orders 
violated.
    One is by a joint Afghan NATO senior officer, general 
officer commission, and one was by the religious folks there. 
In all three of these, two of them have reported out--the joint 
one, and the religious one--and the U.S. investigation is still 
under way at this time.
    Mr. Kissell. And Admiral McRaven, also someone that you 
guys were talking about the night raids--it was pointed out to 
me recently that one--that President Karzai has problems with 
this, the rank-and-file population in Afghanistan welcomes them 
because it gets rid of bad guys.
    And you were talking about how we are training special 
forces for the Afghans, so they can take the lead but I also 
have heard that we are--have recently asked for Afghan ladies 
to become trained special forces, so they can be involved in 
this.
    I just wonder if you can expand a little bit on what the 
general view from the Afghan population is toward night raids 
and toward this specialty of asking ladies to become involved.
    Admiral McRaven. Sir, thank you. On the night raids, when I 
was there over the past 3 years as one of the commanders of one 
of the SOF units there, we routinely brought in governors, 
Afghan governors, and we brought in some of the senators and we 
brought in some of the parliamentarians to talk to them about 
how special operations conducted their missions within 
Afghanistan.
    And I will tell you across the board, after we had those 
discussions with the Afghan senior leaders and they had an 
appreciation of how we did things, how small the civilian 
casualty rate was, they came away with a much greater 
appreciation.
    And I would say at that point in time, I myself felt 
comfortable that they understood the value of night raids. And 
sometimes for political reasons, they will tend to use the 
night raids, kind of against us in order to gain some political 
leverage within their province, their district, et cetera.
    But having said that, my sense in talking to most of 
leadership and up and down the chain of command, the Afghan 
chain of command, is that there are reasonably supportive of 
night raids, particularly when it takes out a high-value 
individual that is creating problems in their region with 
minimal civilian casualties which is what we try to do every 
time.
    In terms of the females, sir we have a U.S. female cultural 
support teams much along the line of the Army and Marine Corps 
female engagement teams. They have been very, very successful.
    We are working with the Afghans now to see if we can get 
Afghan females to take on that role of being able to talk to 
Afghan female to Afghan female. And we hope that that program 
will take root and be as successful as some of our other female 
engagement programs.
    Mr. Kissell. Of course, again, thank you gentlemen and I 
yield back.
    Mr. Thornberry. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman, and gentlemen, thank 
you for being here today.
    General Mattis, kind of playing back off what the Chairman 
started off in terms of his conversation, with you--that you 
have got some reprogramming requests and to the committee 
relative to Iran area of operation.
    Can you visit with us about what you are trying to 
strengthen and that what are the changes there that are driving 
these reprogram requests?
    General Mattis. As you all understand Congressman, I keep a 
very weather eye on this situation with reference to Iran. As 
we look at anything that is revealed in terms of their 
capabilities, we are looking to see if there is something new 
coming out.
    And in the couple of cases, they brought up capabilities 
either faster than we anticipated and these are relatively 
minor, refocusing our effort; in other words, there is no 
significant area where I have got to come in and say we have 
got a big problem here, there are just areas I want to make 
certain we maintain our edge.
    And each of those cases are justified in detail and I can 
discuss those with you; I would prefer to discuss those in your 
office with you, sir.
    Mr. Conaway. All right. When was the last time we did a 
missile defense test in that area with our Gulf partners. Have 
we done one?
    General Mattis. Routinely and within the last 30 days, sir.
    Mr. Conaway. Alright. I was in Abu Dhabi recently and the 
Patriot battalion commander there that was training the Abu 
Dhabi's was jealous of their I guess, block three or whatever 
you call the system--he said, that is better than what he has 
in his normal duty station.
    Admiral McRaven, Allen West may have touched on this a 
little bit, last October I was in Kunduz at a village stability 
operations area and we were working with local Afghan National 
Police--local Afghan Local Police, driven or led by a SOF--or 
an army A-team and the limitations you see and they had--they 
were augmented by non-SOF forces.
    Limitations seemed to be that the A-team had to lead each 
of these areas. Have you looked at expanding the--in other 
words, can we get to all of the villages that need to have this 
done, by the time the clock runs out, and are you looking at 
ways of moving some of that mission, maybe out of the direct A-
team folks to a broader military--to make sure we get it all 
done in time?
    Admiral McRaven. Sir, when we started the village stability 
program almost 2 years ago now and then, the Afghan Local 
Police program which is one of the security components of the 
village stability program, we mapped out each individual site 
that we were looking to grow to. General Petraeus came in and 
actually asked us to expand that, which we did.
    So they have done some very, very detailed analyzes looking 
at where every ALP [Afghan Local Police]/VSO site ought to be. 
And we are moving along a very good azimuth to get to all those 
sites in time.
    What we do, it takes really about 18 to 24 months from the 
time that an ODA [Operational Detachment Alpha], Special Forces 
ODA comes in to an area, gets together with the tribal 
leadership, gets the shura, gets the approval of the villagers, 
get the linkage to the MOI [Ministry of Interior], gets the 
Afghan Local Police funded and we are in a position where we 
are confident that then we can provide oversight.
    So part of the plan is establishing the Afghan Local Police 
units and then when they are fully capable of standing on their 
own two feet, the Special Forces folks kind of move on to the 
next site but provide oversight and overwatch to that 
particular ALP site.
    So as we grow from our current 11,000 up to approximately 
30,000 folks, ALPs, that will be part of the scheme maneuver. 
So we will always have a Special Forces officer NCO [non-
commissioned officer] or a special operations operator, a Navy 
SEAL or Marine Special Operations officer NCO, providing either 
direct support or overwatch with our Afghan commandos and 
Afghan special forces folks as well.
    Mr. Conaway. Is the--and maybe speak a little bit to the 
post period when we are mostly gone. Are there plans in place 
to train the Afghans to do that overwatch and also expand that 
policy, as well as I guess, ``police the police'' on a going-
forward basis once we are no longer there looking over their 
shoulder?
    Admiral McRaven. Sir, the Afghan commandos and the Afghan 
special forces have been integral to everything we are doing on 
the ALP program. So the expectation is if we were to depart in 
2014, then the Afghan commandos and the special forces will be 
able to take up that role and provide the oversight necessary 
for the ALP program.
    Mr. Conaway. And you are confident that we have got enough 
capacity and time between now and 2014 to get to that 30,000?
    Admiral McRaven. Sir, to get to that 30,000, yes, sir.
    Mr. Conaway. Okay. Gentlemen, thank you all for your 
service. Appreciate it. Thank you. Mr. Chairman.
    Mr. Thornberry. Thank you. Ms. Bordallo.
    Ms. Bordallo. Thank you, Chairman Thornberry. And good 
afternoon, gentlemen. I want to thank you for your important 
and dedicated service to our country. General Fraser, I have a 
couple of quick questions for you and it is good to see you 
again today.
    As you are well aware of the President's initiative to 
increase our force presence in the Asia-Pacific region, can you 
share with the committee the strategic significance of Guam in 
your global en route infrastructure and how critical will it be 
for the future stability and the growth of this region?
    General Fraser. Thank you very much and good to see you 
again too. The global look that we have taken is certainly 
something that is going to be important to us as we look 
forward to the future because we don't know where the next call 
will come, whether it is a humanitarian response or it is 
responding to a crisis of some other nature.
    As we take a look at the Pacific and what we have out 
there, there is a number of things that I feel confident that 
we will be able to capitalize on and one is our commercial 
partners and the access that they have, be it through seaports 
or airfields and things of this nature which will enable us to 
support the large region in the Pacific.
    Also, as we have discussed the other day, when I take a 
look at the importance of Hawaii, but also of Guam, it is going 
to be a vital link as we look forward in the Pacific and the 
ability to get access and to forward-deploy our forces there. 
So Guam is vital to us as a link in the Pacific.
    Ms. Bordallo. Thank you, General. How does the budget 
support USTRANSCOM for their strategic imperatives such as 
increased focus on the Asia-Pacific region and investments in 
new technologies or infrastructure?
    General Fraser. We are very well supported as we work 
through our transportation working capital fund, but also if I 
would refer back to our en route infrastructure plan that we 
have, we have a process by which we are able to evaluate the en 
route infrastructure and then balance that against both CONUS 
[Continental United States] and OCONUS [Outside the Continental 
United States] requirements.
    We feed that into a process, not only through a global 
look, but also with our combatant commanders and with the 
Services to garner that support and we are very well serviced.
    Ms. Bordallo. Thank you very much, General. And I know I 
have time left but I am going to yield back. I did visit with 
the general yesterday. Thank you, Mr. Chairman.
    Mr. Thornberry. Thank you. Mr. Gibson.
    Mr. Gibson. Thanks, Mr. Chairman. Let me just say that I 
think organizing this hearing with the Central Command, the 
Special Operations Command, and Transportation Command has been 
productive. I think the written testimony, unfortunately I 
missed the opening remarks, but I read the written testimony 
and the dialog here, I think, today has been very informative.
    Gentlemen, thank you for being here and for your service, 
for leadership. Admiral McRaven, let me just start by saying, I 
strongly support what you are doing. I think the initiatives 
that you are taking are making our country safer, talking 
particularly now about (?) and other matters that you have 
ongoing. And also want to commend the coordination that you are 
doing with the regional combatant commanders to bring this 
about and tell you that the field trips that I have taken 
recently have really highlighted a burgeoning capability that I 
really am optimistic about going forward.
    I did note that the interagency capacity and teamwork there 
is--it appeared to me largely through personalities and through 
informal arrangements. All the more commendable where we are 
today but concerning just from a systemic standpoint looking, I 
would hope at some point, towards codification or 
solidification someway of some of the things that you are doing 
that I saw on field trips.
    And so, as you know, Admiral, we asked for a study or the 
committee asked for a study. I am just curious to know, I want 
to get out in front of this. I know it may be part of other 
studies that you are doing but curious to know the timeline for 
completion of that study to share with the committee and if you 
had any remarks you wanted to make on this.
    And, Mr. Chairman, of course, I know you are tracking. This 
is a study with asking the admiral for his thoughts on 
organization within the command. Thanks.
    Admiral McRaven. Thank you, Congressman. First, I will 
address the interagency issue. As you point out, we have 
tremendous relationships with the interagency across the board. 
And I think this really began to develop as a result of 9/11 
and while we have always had special operations, always had an 
enduring relationship with the intelligence community and with 
law enforcement community, 9/11 really kind of solidified that 
and today we are probably at the peak of that.
    I look around just for USSOCOM alone. I have got somewhere 
in the neighborhood of 300 interagency folks that are assigned 
to U.S. Special Operations Command from all of the agencies. 
And that partnership is crucial to us.
    So regarding the study, as you point out, we are in the 
process of completing that and we will forward that when the 
time comes. I am--you know, again, I am very satisfied with 
USSOCOM and the current organizational structure writ large. 
However, as every new commander comes in, there are small 
tweaks on making inside the headquarters.
    And as you point out, my long term intent is to be able to 
provide as a force provider, the finest forces I can to the 
geographic commanders and to the chiefs of mission as required. 
And with the support we have gotten in this year's budget, I 
think we are well poised to do that.
    Mr. Gibson. Very well. Thank you for that and I look 
forward to receiving the study.
    General Fraser, as you pointed out earlier in some of your 
responses that the mobility study that we have is based on 
2009. It certainly predates the current change in direction in 
our strategy. And having experienced firsthand the 
underresourcing of strategic lift for a mission and I am 
referring here for the earthquake response for Haiti in January 
of 2010, certainly a lot going on then, surging Afghanistan and 
get all that. But we are all products of our experience. And so 
I come with some trepidation when I see how we are preparing to 
move forward with regard to strategic lift.
    And so I come at this with a question that says, have we 
modeled this and what are the plans in terms of simulations and 
exercises to validate the assumptions that were made for 
reduction in strategic lift. And in the planning that you have 
done, what assumptions were made in terms of leadtime. I mean, 
we have had over the last decade and even going back to when I 
was a young lad, I mean, 1990, we had leadtime and we were able 
to move, equipment and people and there is no guarantee that we 
would have that if we really needed it.
    And of course we have provisions to civilian aircraft but 
that would depend on the situation on how permissive it would 
be to use that. So I am certainly interested to hear your 
response to these.
    General Fraser. Thank you, Congressman. The analytical 
rigor that went in to the mobility capabilities study is still 
valid and it is something that we have taken and then done some 
analysis from in order to support the further reduction of 
strategic airlift. And that is how we come to the conclusion 
that we do that we can support the Air Force and their position 
with the oversized outsized cargo lift capabilities of the C17 
and also the C5.
    With respect to Haiti, of course there were a lot of 
different things that created the challenges that we had with 
Haiti. You had a single runway there, and you didn't have a 
taxiway so you would max out the ability on the ground right 
away. You had a lot of international support. There was a lot 
of coordination necessary.
    We couldn't get the port open right away, so there were a 
lot of other variables associated with it. So it was not just 
the strategic lift piece, because we did have capacity and we 
also had the ability to fly shorter-legged aircrafts such as 
C130s or other things to get capability in there to support 
that operation. The analytical rigor needs to be done again to 
take a look at what the requirements are as a result of a 
change in the strategy.
    Mr. Gibson. And are there plans for that in the coming year 
to model, simulate, exercise in some way so that we get a finer 
level of confidence?
    General Fraser. Sir, we are always evaluating and we have 
an organization that does that.
    Mr. Gibson. Okay, thank you very much and thank you, 
gentlemen. I yield back.
    Mr. Thornberry. Admiral McRaven, the study to which Mr. 
Gibson referred was due March 1st. Do you have any idea when we 
might get that?
    Admiral McRaven. Sir, we will get it to you absolutely as 
soon as possible, sir.
    Mr. Thornberry. Thank you. Mr. Runyan.
    Mr. Runyan. Thank you, Mr. Chairman. And, gentlemen, thank 
you for your testimony and your service to our country.
    All my questions are actually for General Fraser. Dealing a 
lot with the--with craft and our service there with obviously 
we had testimony in front of this committee from the Air Force, 
other members of the Air Force that stated that were really 
flying the blades, quote--``flying the blades off'' the 47 
referring to Chinooks.
    And even our strategic airlift fleet has dramatically 
exceeded its plan program records. Since 2002, C17s exceeded 
their program by over 103,000 hours and C5s have exceeded 
theirs by 151,000 according to this committee's research.
    Can you explain to the committee how Air Mobility Command 
can overfly these levels nominally for training purpose when 
craft carriers could have been cheaper, reduce the tremendous 
recapitalization costs that we will soon face and have enabled 
the American carriers to reinvest in more in fuel-efficient 
aircraft to support the Department.
    General Fraser. Congressman, thank you very much. And first 
I would comment that I have not seen those hours that you 
specifically referenced there. I know that as a result of the 
surge and as a result of other no-notice requirements with 
respect to our strategic airlift, they did overfly the plan--
the flying hour program.
    I thought it was by about 6 percent and maybe by about 30 
percent total overflying that--but that was due to other 
requirements. Other requirements such as the surge, such as the 
other things that they were asked to do.
    Oversized, outsized cargo is not available in the craft. It 
is not a requirement. And so therefore, it is not available and 
it was necessary from an organic perspective in order to 
satisfy their requirements to overfly those programs, so it is 
not available in the craft.
    We depend on the craft for cargo, as well as packs and we 
continue to do that and are very much appreciative of what they 
do. Example is how fast they are able to turn to give us expert 
capacity. When we were asked to bring the troops home from Iraq 
before the holiday period, they provided additional capacity to 
us and we were able to accomplish that mission ahead of 
schedule.
    So I very much appreciate what our craft partners do for 
us. As we do look to the future, there are concerns as they see 
a downturn in the Government business, if you please, they are 
having to take a look at their business models, as they move to 
the future and shift more of the business to the commercial 
side by relying on the military to provide that income that 
they have been dependent upon here in the past. They have 
already started to see that with the downturn in Iraq.
    Army is moving to 9-month deployments. So there will be 
lesser rotations as far as R&R [rest and recuperation] programs 
and things of this nature so there would be less business in 
that area which is just another example. But we are continuing 
to talk with the CEOs [Chief Executive Officers] and they are 
planning for the future.
    I am encouraged and I do very much appreciate what the 
industry has done to modernize their fleet. About 80 percent is 
now modern aircraft; more fuel-efficient, can carry more, can 
go further and we are deeply appreciative of that because it is 
a savings to all of us.
    Mr. Runyan. And I just wanted to point that out because I 
mean, obviously one of the biggest craft carriers, Global 
Aviation, has declared bankruptcy as we speak. And I want to 
point out to you also that the Air Force over the last 5 years 
has spent $2.2 billion on strategic airlift on foreign noncraft 
carriers also.
    So it is something where you take care of your own a lot of 
times. And I just wanted to make sure that you are aware of 
that and any actions you can do to help, you know, maximize the 
craft of our United States flagged aircraft would be greatly 
appreciated. So thank you.
    General Fraser. Thank you, sir.
    Mr. Runyan. I yield back, Chairman.
    Mr. Thornberry. Appreciate it. Admiral McRaven, I have got 
one last question for you. I noticed in the bios of the 
witnesses today that General Mattis had included the college 
from which he graduated. And even General Fraser is willing to 
admit that he is a graduate of Texas A&M. But I didn't see that 
on your bio. You are not embarrassed by your alma mater, are 
you, sir?
    Admiral McRaven. Sir, I am absolutely not. I am a proud 
graduate of University of Texas.
    Mr. Thornberry. Okay. I just recommend a little staff 
follow-up on some of that perhaps.
    Admiral McRaven. We will do.
    Mr. Thornberry. Thank you all seriously for being here, for 
your service to the country and for all of those who serve in 
your commands for their service. We appreciate it. And with 
that, the hearing stand is adjourned.
    [Whereupon, at 12:13 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 7, 2012

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 7, 2012

=======================================================================

      
              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

         Fiscal Year 2013 National Defense Authorization Budget

            Requests from U.S. Central Command, U.S. Special

          Operations Command, and U.S. Transportation Command

                             March 7, 2012

    The House Armed Services Committee meets today to receive 
testimony from the Commanders of U.S. Central Command, General 
James Mattis; U.S. Special Operations Command, Admiral William 
McRaven; and U.S. Transportation Command, General William 
Fraser. Thank you all for being with us today.
    Much has changed since we last received testimony from your 
respective commands. We have withdrawn all forces from Iraq; 
continued to disrupt Al Qaeda and target its senior leadership 
around the world; the President has begun the withdrawal of the 
surge forces in Afghanistan; tensions with Iran continue to 
increase; and a new defense strategy has been released that 
demands increased power projection and a more globally 
balanced, agile, and persistent Special Operations Force.
    Still, even more significant events are on the horizon. 
Reports in the press continue to speculate that the 
Administration may be prepared to announce an additional 
withdrawal of forces and a change to an advisory strategy for 
Afghanistan in advance of the NATO summit in Chicago in May. I 
see little ``strategy'' in such a plan, if it exists; but 
rather a political calculus that will ultimately protract the 
war in Afghanistan, increase casualties, and further erode 
confidence among our allies and credibility among our 
adversaries.
    Meanwhile, Iran is showing little willingness to curtail 
its nuclear program, in spite of the tightening brace of 
economic sanctions imposed at the insistence of Congress. 
Although the Supreme Leader may not yet have made the decision 
to build a nuclear weapon, time is running out for Iran to 
responsibly join the international community. I agree with the 
recent recommendations of the Bipartisan Policy Center task 
force on Iran, led by former Senator Charles Robb and retired 
General Charles Wald, including their warning that the United 
States must immediately shift to a ``triple-track strategy: 
diplomacy, sanctions, and visible, credible preparations for a 
military option of last resort.'' But let me be clear--this 
isn't ``casual'' talk of war. A nuclear Iran is a serious 
problem that the Commander in Chief should be discussing with 
the American people and our allies every day. And it must be 
confronted with all elements of national power, not simply an 
outstretched hand.
    As for Special Operations Command, I alluded to the changes 
envisioned by the new defense strategy. SOCOM is truly being 
asked to do more, with less. The Command's budget was modestly 
reduced, but it is expected to continue its 5% growth rate for 
the next 3 years. Furthermore, all signs point to a heavy 
demand signal for our Special Operations Forces in U.S. Central 
Command where more than 80% of all deployed Special Operations 
Forces are right now.
    In Afghanistan alone, Special Operations Forces will 
continue to be stretched dangerously thin as conventional and 
enabling forces draw down. Although only 8% of the total force 
in Afghanistan, Special Operations Forces are increasingly 
leaned on--at the local level through the Village Stability 
Operations and Afghan Local Police Programs (VSO/ALP), and at 
the national level with ongoing counterterrorism and direct 
action missions in conjunction with our Afghan partners. And 
now, with the potential to have a new three-star SOF General or 
Flag Officer at ISAF command levels, I am increasingly 
concerned that our Special Operations Forces may be forced into 
an overburdened role if our conventional forces withdraw too 
fast and without a sound transition to the Afghan National 
Security Forces.
    Finally, we speculated last year what might happen should 
Pakistan close supply routes to Afghanistan, and now we know. 
TRANSCOM has been doing incredible work to make sure that our 
troops in Afghanistan continue to get what they need in spite 
of the current downturn in U.S.-Pakistan relations. Looking 
forward, TRANSCOM will be challenged to provide the lift and 
prepositioned stocks necessary to fulfill the vision laid out 
in the new defense strategy. It seems to me that an increasing 
emphasis on the Asia-Pacific and an increasingly maritime 
theater in the Middle East, will demand more lift, refueling, 
and prepositioned assets--not less. Yet the President's budget 
request reduces our capacity in each of these areas. This topic 
warrants further oversight by this committee and I look forward 
to your testimony on these matters and more.

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

         Fiscal Year 2013 National Defense Authorization Budget

            Requests from U.S. Central Command, U.S. Special

          Operations Command, and U.S. Transportation Command

                             March 7, 2012

    I would like to join Chairman McKeon in welcoming General 
Mattis, Admiral McRaven, and General Fraser. We appreciate your 
time and look forward to hearing your thoughts on the budget 
requests for your respective commands.
    Earlier this year, the President released the findings of a 
strategic review, which clearly articulated the global threat 
environment, and presented a broad strategy to address those 
threats moving forward. This strategic review appropriately 
places a renewed focus on the critically important Asia-Pacific 
region, while maintaining our focus on the Middle East and 
other emerging threats.
    With the drawdown in Iraq and the ongoing transition to 
Afghan lead for security in Afghanistan, our presence in 
Central Command will be changing. While we being the process of 
ending involvement in ground combat in Afghanistan over the 
next several years, new challenges will emerge and old 
challenges continue to intensify. Iran's nuclear program, the 
Arab Spring in Egypt, the recent conflict and strife in 
Bahrain, the civil war in Syria, ongoing terrorism in Iraq and 
other places, and the problems of Yemen, to name a few, all 
present significant challenges to the United States and our 
allies. I look forward to hearing from General Mattis how his 
command is postured to respond to those challenges and how he 
sees that posture evolving over the next several years.
    It is appropriate that United States Special Operations 
Command (SOCOM) has fared well in the President's proposed 
budget. We have relied heavily upon them in the years since 
September 11th, 2001, and we will continue to do so in the 
future. It is critical, therefore, that our special operations 
forces are fully resourced. Part of that task is to provide 
some respite to a force--and their families--that has operated 
at an incredible pace for so long. To that end, their ranks are 
scheduled to grow slightly over the next few years and that 
will help. Nevertheless, we can expect them to play an even 
larger role in Afghanistan as we withdraw our conventional 
troops, and we will reorient many of them to complement the 
President's new strategy as we shift attention to the Asia-
Pacific region. Moreover, in the effort to face a growing 
global counterterrorism challenge, we must not overlook the 
critical role they play in countering weapons of mass 
destruction.
    With the closure of the five major ground routes through 
Pakistan for moving equipment into and out of Afghanistan, 
United States Transportation Command (TRANSCOM) will continue 
to face major challenges toward ensuring the safe, efficient, 
and affordable transport of critical warfighting materiel and 
supplies. I will be interested to hear how TRANSCOM is managing 
these challenges and what efforts are being made to further 
develop the Northern Distribution Network through central Asia. 
Of course, all this is occurring at the same time the Air Force 
is reducing its airlift fleet, both for strategic and tactical 
airlift, so it is important that we understand the implications 
of these reductions, both on the ability to respond to 
worldwide events and to meet homeland Title 32 mission 
requirements. On the strategic side, we know that capacity 
exists in the private sector through the Civil Reserve Air 
Fleet, or CRAF, and I would be interested to hear how 
effectively TRANSCOM is using those assets.
    Again, thank you all for your time and I look forward to 
hearing your testimony. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 7, 2012

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. WITTMAN

    Admiral McRaven. I am confident that those objectives, which GEN 
Allen has outlined in his campaign strategy for SOF, can be 
accomplished even in the face of GPF reductions. There will be inherent 
challenges of course, but our collective ability to build capacity in 
our Afghan partners, assist them in mitigating regional threats, and 
establish the underpinnings of lasting stability at the village level 
through Village Stability Operations (VSO), will continue undiminished. 
Ultimately, enduring security and stability will rest on the shoulders 
of the Afghans and our commanders and operators in the field will do 
everything possible to provide them the opportunity and conditions for 
this to occur. But we cannot and will not do it alone. Our NATO and 
coalition SOF allies, as well as our critical interagency partners will 
have an equal hand in it. GEN Allen's and GEN Mattis's staffs are 
working hard to ensure SOF and the aggregate effort are sufficiently 
supported and enabled. [See page 29.]
                                 ______
                                 
            RESPONSE TO QUESTION SUBMITTED BY MR. GARAMENDI
    General Mattis. The Department of Defense (DOD) estimates it needs 
$88.5 billion in FY13 OCO funding of which $85.6B is to conduct 
military operations for Operation ENDURING FREEDOM in Afghanistan. 
$2.9B is for our activities in Iraq, primarily for the repair and 
replacement of damaged equipment and for the operation of the Office of 
Security Cooperation-Iraq. Since the DOD budget is a bottom-up budget 
prepared each year to support current military operations and strategy, 
the Department does not have the information necessary to predict its 
FY14 or beyond OCO requirements. The President's budget request does 
however propose a binding cap on OCO spending of $450B from 2013 
through 2021. Based on the need for flexibility in budgeting for 
overseas contingencies, this is a multiyear total cap rather than a 
series of year-by-year caps. [See page 23.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 7, 2012

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. General Mattis, I've asked this question of other 
Combatant Commanders and would appreciate your thoughts as well--I have 
been very concerned over time about the capabilities of our bases here 
in the United States to withstand a cyberattack directed against 
outside supporting infrastructure, such as the electrical grid. Have 
you examined the ability of bases in CENTCOM to operate in the event of 
such an attack?
    General Mattis. Yes, continuity of operations is a primary concern 
for all of our CENTCOM bases and I am confident that our bases will 
continue to operate in the event of conventional attack, a natural 
disaster or a cyber-attack even against outside supporting 
infrastructure. We have assessed the more modern and enduring bases in 
the western areas of CENTCOM's area of responsibility may have 
interruptions in the commercially leased infrastructure for utilities 
that include power and communications. To mitigate this concern, we 
resourced sufficient on-site backup generators and military satellite 
capability to continue our critical missions. The tactical bases in 
Afghanistan are much more self-sufficient with respect to all their 
utilities based on the design of the combat-portable systems that 
provide the daily operating utilities to those locations. Bagram Air 
Base, for example, generates all of its power on-site, has multiple 
satellite communications systems in addition to the commercially leased 
fiber optic connectivity to that post. We practice our ability to 
continue operations even if a cyber-attack interrupts our connectivity.

    Mr. Langevin. Admiral McRaven, in the aftermath of 9/11, much of 
SOCOM's attention and abilities have been focused on the 
counterterrorism mission. With the unsettled politics of many countries 
in possession of nuclear materials, are you confident that SOCOM can 
still undertake its counterproliferation contingencies?
    Admiral McRaven. SOCOM maintains an unsurpassed capability to 
counter global proliferation of weapons of mass destruction (WMD). 
Despite a counterterrorism (CT) and counterinsurgency operations (COIN) 
focus since mid-2003, Special Operations Forces have continued to 
increase their capacity to conduct counter proliferation (CP) 
activities. We are working towards balancing our counter terrorism 
operational requirements while increasing our capacity to counter the 
global proliferation of WMD, all of which contribute towards posturing 
SOF to respond to the Nation's most challenging contingencies and 
mitigate the risks associated with counter WMD operations.
    Moving forward SOCOM must continue to work across DOD and the USG 
to ensure SOF develops global access and placement from which to 
counter WMD threats, gains visibility of and has access to WMD 
intelligence and has the authorities to enable or conduct CP 
activities. Finally, USSOCOM must continue to exercise CP capabilities 
across the entire WMD pathway. Additional national-level exercises and 
war games are required to ensure all parts of the Government and levels 
of command are prepared for CP contingencies.
    Mr. Langevin. Are there capability shortfalls with regard to your 
counterproliferation mission that require investments in R&D?
    Admiral McRaven. Executing the SOF counter proliferation (CP) 
mission requires USSOCOM to have a strong and active relationship with 
the Defense Threat Reduction Agency, the Defense Advanced Research and 
Projects Agency, and the Joint Program Executive Office for Chemical 
and Biological Defense as our Research and Development (R&D) resource 
sponsors. This interagency partnership is the primary enabler which 
provides SOF the required agility, flexibility, and readiness to 
respond to counter proliferation contingencies. With the current 
constrained fiscal environment this approach is leveraged to mutually 
support the closely related SOF counter terrorism mission.
    For all counter proliferation R&D efforts that support the SOF 
mission, USSOCOM is dependent on our resource sponsors to support SOF 
in advancing CP and to rapidly develop material solutions to address 
our Nation's most demanding security challenges. While gaps exist in 
weapons of mass destruction (WMD) detection capabilities and in timely, 
usable intelligence on upstream development activities, there are 
several funded programs that are attempting to close these gaps.
    USSOCOM continuously assesses SOF capabilities in the CP mission 
area to identify and prioritize requirements. We are continuing to 
review global manpower and equipment levels throughout the SOF 
enterprise in order to fully leverage emerging technologies to counter 
current and future CWMD threats.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. You stated you have a large number of contractors 
conducting training in Iraq associated with the Office of Security 
Cooperation. Is that the most cost-effective means of providing that 
training or could, or perhaps should, civilians be providing that 
training?
    General Mattis. While uniformed personnel are preferred as the most 
cost-effective option, we are limited by authorities, host nation 
acceptance of uniformed boots on the ground and the number of available 
specialized (high demand/low density) uniform personnel. This leaves 
contractors as a suitable alternative. In addition, the Security 
Assistance Team contractors in Iraq conduct a range of duties 
associated with the ongoing Foreign Military Sales cases in Iraq, 
including provision of the equipment, training, maintenance, and 
sustainment. Their breadth of engagement in Iraq encompasses air, sea, 
and land functions. Additionally, the variety of systems the United 
States is providing to Iraq requires a multitude of special trainer 
skills not maintained by the military or Department of Defense 
civilians, which results in a significant need for contractors who have 
these skills. In summary, I think civilians provide the viable option 
in light of the competing factors.
    Ms. Bordallo. The GAO released a report last week regarding the 
excessive reliance on contract support, and associated risks, in using 
contractor personnel to train Afghan police. The GAO stated that 
``After assuming program responsibility from State in 2009, DOD did not 
assess the advantages or disadvantages of using USG or contractor 
personnel for the ANP training program and has not assessed the 
potential impact of transferring responsibilities to USG personnel for 
the ANP training program since awarding the contract to DynCorp in 
2010.'' Is there any plan in CENTCOM to conduct such an assessment, 
consistent with the requirements of DOD workforce mix guidance and 
other Federal policies and statutory requirements?
    General Mattis. A drawdown plan is currently under development that 
will reduce the number of Afghan National Police (ANP) training sites 
and associated personnel, from approximately 32 current sites to 
approximately 11 permanent sites. As part of this review, we are also 
analyzing how to optimize the workforce mix of personnel to meet all 
the various objectives while still delivering training. Taken together 
I think we are gaining the advantages of an assessment.
    Ms. Bordallo. How does the decision to rely on DynCorp to provide 
these services reconcile with Secretary Gates' January 2011 memorandum 
which directs the Department to ``assess opportunities for insourcing 
contracted capabilities that represent high risk . . . consistent with 
budget and force-mix policy''?
    General Mattis. Our plan to reduce Afghan National Police training 
sites will provide an assessment inclusive of an evaluation of 
insourcing high-risk contracted capabilities. As our force posture 
draws down, we will continue to apply due diligence in ensuring our 
remaining force mix is optimally balanced to address mission 
requirements.
    Ms. Bordallo. The GAO also stated that ``DOD officials considered 
the use of government personnel to perform the mission and found that 
the ANP training program did not include any inherently governmental 
functions.'' Did CENTCOM consider other factors other than simply 
consideration of inherently governmental consistent with its own 
policies on workforce mix--such as risk mitigation, critical or 
discretionary nature of the work, or cost--as required by 10 USC 2463?
    General Mattis. As noted by the GAO, the Department of Defense 
assumed the police training mission from Department of State in 2009 
and assessed the function should not be considered ``an inherent 
governmental function.'' While uniformed personnel are preferred as the 
most cost-effective option and DOD units retain the organic capability 
to perform some tasks required to adequately develop ANP officers (such 
as weapons handling, conduct of patrols, and basic survival skills), we 
are limited by the number of uniformed boots on the ground we can have 
in Afghanistan and the number of available specialized military 
personnel. As a result, and in accordance with 10 USC 2463, 
specifically per paragraph b.2, DOD decided to augment police training 
teams with contracted police trainers to fill these critical skills.
    Ms. Bordallo. DOD officials also told the GAO that there the 
Government did ``not have sufficient personnel with the needed skills 
in civilian policing available . . . contractor personnel were used to 
fill skill and resource gaps.'' What is CENTCOM doing to remedy such 
shortfalls and skill gaps within your area of responsibility?
    General Mattis. Due to the scope and limited duration of the police 
training mission in Afghanistan, DOD chose to utilize specialized 
contractors to remedy the shortfalls for qualified trainers. 
Contractors serve as a valuable resource in the absence of sufficient 
U.S. Government personnel with the needed skills in civilian policing 
available to provide all the trainers and mentors needed by the Afghan 
National Police (ANP) training program. CENTCOM also draws on DOD 
capabilities, when possible, to support training, such as the Personal 
Security Vulnerability Assessment Train the Trainer Course taught by 
Soldiers from the U.S. Army Criminal Investigations Command, in support 
of the Afghan Senior Leader Protection Program. This type of 
specialized training provides a great opportunity to leverage the 
skills of our military personnel over a short period of time and does 
not count against our mandated force limit requirements in theater.
    Ms. Bordallo. President Obama has made reducing reliance on 
contractors and rebalancing the workforce a major management initiative 
of his Administration. In your opinion, given the restrictions on the 
size of your civilian workforce imposed by the Office of the Secretary 
of Defense, does the current CENTCOM workforce construct reflect an 
appropriately balanced workforce between civilian, military and 
contract support across all major capabilities, functional areas, and 
requirements? Please support your response with workforce and cost data 
as required by statutes and policies.
    General Mattis. The current workforce construct reflects an 
appropriately balanced work force for this Headquarters and enables 
this command to perform its shaping and missions to achieve theater 
security objectives. To enable an improved balance of constrained 
military resources, CENTCOM converted 57 military positions to civilian 
billets between 2009 and 2011 and also converted 247 contractor full-
time equivalents to civilian positions between 2010 and 2011. 
Currently, our civilian requirements consist of 468 civilian billets, 
including 388 in the management headquarters and another 80 throughout 
our area of operations working hand-in-hand with their military 
counterparts. While it is difficult to capture workforce and cost data, 
we estimate a savings of approximately forty thousand dollars for each 
conversion.
    Ms. Bordallo. Did CENTCOM seek relief from DOD-mandated civilian 
personnel levels in order to insource contracted work more cost-
effectively performed by civilians?
    General Mattis. Yes, following the decision by DOD to freeze 
civilian manpower levels at the Fiscal Year (FY) 2010 levels, CENTCOM 
asked for an exception to convert 98 billets in FY 2011 and 31 billets 
in FY 2013. The exception for the 98 billets in FY 2011 was approved. 
The request to convert 31 billets in FY 2013 was denied citing the 
necessity to remain at the FY 2010 manpower levels and emphasizing that 
any insourcing actions must be implemented within the civilian cap.
    Ms. Bordallo. To what extent has CENTCOM used insourcing to reduce 
reliance on contractors, rebalance its workforce, and generate 
efficiencies?
    General Mattis. Since 2008, we have converted 247 contracting 
equivalents to civilian billets resulting in a $145.7 million reduction 
in contract funds over the future years' defense plan (2010-2014).
    Ms. Bordallo. Are you comfortable that all contracted services 
currently supporting CENTCOM are the most cost-effective and risk-
averse source of labor?
    General Mattis. We endeavor to use the existing military force 
structure and capabilities to meet operational requirements within the 
CENTCOM Area of Responsibility. However, since we are at times limited 
by authorities, host nation acceptance of uniformed boots on the ground 
and the number of available specialized uniform personnel, contractors 
are often the only option. I am never completely comfortable with our 
use of contractors and persistently assess our operational requirements 
to leverage only the contract servicing we need. I insist on a process 
that is as flexible and responsible as possible for CENTCOM operating 
forces with the critical skills they need, while balancing this 
emphasis against cost and limited resources.
    Ms. Bordallo. What processes are in place within CENTCOM to ensure 
the workload associated with reductions being made in the civilian 
workforce is in fact ceasing, as opposed to being absorbed by other 
labor sources such as contractors or military personnel?
    General Mattis. We have not experienced reductions in the civilian 
workforce because of the approved military to civilian and contract-to-
civilian conversions. Currently, the workload is balanced across the 
major labor sources, but CENTCOM will continue to assess any future 
reductions that emerge.
    Ms. Bordallo. In the CENTCOM plan for the inventory of contracts 
for services in accordance with section 8108(c) of last year's 
appropriations act, signed by your Chief of Staff on October 4, 2011, 
and submitted to the congressional defense committees as part of the 
consolidated DOD plan, CENTCOM planned to begin modifying statements of 
work beginning October 1, 2011. How many contract actions have been 
executed with the new requirements since October 1, 2011?
    General Mattis. CENTCOM has executed no contract actions with the 
new requirement because the Army's Contract Manpower Reporting 
Application (CMRA) website application is still under development and 
expected to be fielded in the next several months. CMRA will gather the 
contractor information in accordance with section 8108(c) guidance. 
CENTCOM will insert the appropriate language in existing and new 
contracts once the CMRA website becomes functional.
    Ms. Bordallo. There was a lot of discussion last year about the 
``exceptions'' to the FY10 civilian levels Secretary Gates mandated. 
Please provide a detailed list of all exceptions CENTCOM has had 
approved to date and the reason for those exceptions, as well as any 
exceptions that were requested but not approved, and the justification 
for such.
    General Mattis. The Department approved five (5) exceptions and 
disapproved two (2). A detailed list follows:
    1. Approved 10 military-to-civilian conversions. In 2007, USCENTCOM 
programmed the conversion of 57 military billets to civilian over the 
2009-2012 programs as part of the Defense Manpower Review Process. 
During implementation, 10 of these 57 positions were delayed due to 
budget consideration. The subsequent approval allowed the 10 positions 
to convert in 2011 and 2012. This conversion was directed by the 
Defense Department in order to return military billets to the Services 
for reallocation to units.
    2. Approved growth of one civilian and 3 military for Special 
Operations Command, Central's Cultural Engagement Group. The 2010 
National Defense Authorization Act directed development of a 
sustainment plan for the Cultural Engagement Group. This is an enduring 
mission that meets compartmentalized SECDEF objectives throughout the 
USCENTCOM area of responsibility. The unit requires specialized 
operational and tactical level logistic support in order to accomplish 
highly classified, SECDEF directed operations.
    3. Approved 9 full-time Counter Narcotics equivalents as civilian 
billets. The Department approved funding in 2010 for an increase of 
eight Full-Time Equivalent (FTE) positions in 2010 and one additional 
in 2011. They will also provide continuity of expertise and oversight 
for the contractors supporting the newly assigned mission area. The 
positions establish a rotational presence in Afghanistan and Pakistan 
and provide savings in contractor expenses.
    4. Approved Afghanistan/Pakistan Center of Excellence 221 civilian 
billets. The SECDEF approved 221 new civilian billets in the 
President's 2011 budget for our Afghanistan/Pakistan Center of 
Excellence. The Defense Intelligence Agency authorized our Intelligence 
Director to begin advance hiring personnel against provisional billets 
in June 2010 and withdrew $64.6 million in 2011 in Overseas Contingency 
Operations funding.
    5. Approved insourcing 98 positions planned for 2011. This 
contractor to civilian conversion initiative saved the Department $80M 
over the Future Years Defense Plan. Allowing USCENTCOM to continue on 
this cost savings track not only provided better continuity and 
expertise in critical mission areas across USCENTCOM's mission set but 
facilitated the civilian hiring actions then in progress.
    6. Disapproved insourcing 31 positions planned for 2013. The 
directed SECDEF freeze of civilian manpower at 2010 levels halted our 
remaining Future Years Defense Plan programmed contract conversions. 
The command identified 31 as critical to achieving manning objectives 
within funding constraints. The SECDEF's policy now requires such 
requests be validated through the Chairman's Joint Manpower Validation 
Process.
    7. Disapproved 144 (28 Defense civilians, 30 foreign national 
civilians, and 86 military) permanent Office of Security Cooperation, 
Iraq (OSC-I) billets. USCENTCOM requested permanent manning to 
establish OSC-I to reach full operational capability as validated by 
the Joint Manpower Validation Process. The Department denied the 
request to fund OSC-I in the base budget and instead funded it through 
the Overseas Contingency Operations budget and is using temporary Joint 
Individual Augmentation for staffing.
    Ms. Bordallo. As efficiencies are being executed across CENTCOM, is 
the workload and functions associated with those being tracked as 
eliminated or divested through the annual inventory of functions?
    General Mattis. Yes, we are tracking efficiency initiative 
implementation using the Defense Enterprise Performance Management 
System (DEPMS). In addition, Departmental guidance for annual inventory 
of inherently governmental and commercial functions, issued 24 October 
2011, required us to identify and provide rationale for all major 
changes to both civilian and military workload. This includes 
identification of any difference resulting from the implementation of 
organizational efficiencies and budgetary reductions as a result of 
USCENTCOM's efforts to streamline business operations, reduce 
redundancies and/or overhead functions, and maximize shared services. 
We submitted our data sets to Joint Staff and OSD in February 2012.

    Ms. Bordallo. You stated that you while contractors are expensive 
there are places and times where having a contract force works well for 
us as opposed to putting uniformed military? In this era of constrained 
budgets, why would we pay more for contractors and not use military or 
even civilians, to do the necessary work of the Department?
    Admiral McRaven. While military and civilian personnel can be 
utilized to perform a myriad of functions and roles there are, 
inherently in any organization, specific skill sets and workload 
requirements that are best fulfilled through the use of contract 
personnel. Skill sets not available in military/civilian workforce must 
be procured. Contractors, when utilized in a specific and targeted 
manner, facilitate the holistic mission completion and serve to 
maintain a balanced work force. We have discovered that Contract 
personnel are a preferred approach to meet periodic and surge 
requirements.
    Ms. Bordallo. President Obama has made reducing reliance on 
contractors and rebalancing the workforce a major management initiative 
of his Administration. In your opinion, given the restrictions on the 
size of your civilian workforce imposed by the Office of the Secretary 
of Defense, does the current SOCOM workforce construct reflect an 
appropriately balanced workforce between civilian, military and 
contract support across all major capabilities, functional areas, and 
requirements? Please support your response with workforce and cost data 
as required by statutes and policies.
    Admiral McRaven. USSOCOM's workforce is approximately the right 
amount, but the mix between military, civilian, and contract support 
will continue to flex based on current demand and mission requirements.
    Ms. Bordallo. Did SOCOM seek relief from DOD-mandated civilian 
personnel levels in order to insource contracted work more cost-
effectively performed by civilians?
    Admiral McRaven. SOCOM did not seek relief from DOD-mandated 
civilian personnel levels. SOCOM has met the mandated contract service 
levels and civilian cap. Both of these levels are being closely 
monitored during each fiscal year to ensure that SOCOM and its 
Components do not exceed these levels. The Command is analyzing the 
impact these caps have placed on work load and cost in an effort to 
determine and degradation in efficiencies. Currently the impact of 
these restrictions is manageable.
    Ms. Bordallo. To what extent has SOCOM used insourcing to reduce 
reliance on contractors, rebalance its workforce, and generate 
efficiencies?
    Admiral McRaven. Insourcing is a statutory requirement/mandate, 
rather than solely a policy-driven action. We try to refrain from using 
the term ``contractor-to-civilian conversions,'' because we are 
insourcing work/services, not necessarily converting contractors. Also, 
we do not have contractor requirements, we have requirements determined 
to be commercial in nature and choose to meet them with contract 
support. In an effort to meet Office of Secretary of Defense (OSD) 
guidance, USSOCOM has continued to analyze the benefits of contractor-
to-civilian conversions as a continuing process each fiscal year. The 
long-term requirements, we expect to be enduring, are placed on a list 
of potential contractor-to-civilian conversions. This list is reviewed 
and approved by USSOCOM senior leadership to ensure all criteria are 
within the established guidelines provided by OSD. This process is 
utilized every year as a best practice for future solutions to long-
term or enduring contractor requirements. In some cases the benefits 
are not in line with the best use of contract requirements, such as 
periodic or surge requirements which can be better met by the use of 
continuing contract services. This provides a much more flexible 
approach to rapidly changing requirements, which is much more difficult 
to satisfy with civilians.
    Ms. Bordallo. Are you comfortable that all contracted services 
currently supporting SOCOM are the most cost-effective and risk-averse 
source of labor?
    Admiral McRaven. Yes, USSOCOM has established a two-phase process 
to ensure that all service contract requirements are cost-effective. 
First, the Command established a senior level review board to validate 
all new and annual service requirements. This senior level review board 
determines whether any proposed effort can first be met by internal or 
other Government resources. The board also ensures that service 
requirements reflect the minimum needs of the Government. Second, the 
Command established a Service Acquisition Management Office (SAMO) to 
assist in the development of those service requirements that have been 
validated. For these requirements, the SAMO determines the most risk 
averse acquisition strategy and ensures to the maximum extent practical 
that all service requirements are performance-based and contracted on a 
firm fixed price basis.
    Ms. Bordallo. What processes are in place within SOCOM to ensure 
the workload associated with reductions being made in the civilian 
workforce is in fact ceasing, as opposed to being absorbed by other 
labor sources such as contractors or military personnel?
    Admiral McRaven. SOCOM has instituted the ``SOCOM Efficiencies 
Compliance Effort.'' This initiative tracks the reduction in the 
civilian workforce, as dictated by DOD guidance. The work load 
associated with the reduction has been eliminated in most cases, but in 
some instances, specific tasks have been transferred to other labor 
sources until those tasks can be eliminated.
    Ms. Bordallo. In the SOCOM plan for the inventory of contracted 
services in accordance with section 8108(c) of last year's 
appropriations act, signed by your Senior Acquisition Executive on 
September 29, 2011, and submitted to the congressional defense 
committees as part of the consolidated DOD plan, SOCOM planned to begin 
modifying statements of work beginning October 1, 2011. How many 
contract actions have been executed with the new requirements since 
October 1, 2011?
    Admiral McRaven. USSOCOM was prepared to include language requiring 
the collection of direct labor hour/related cost data from contractors 
in both new and existing service contracts when it was determined that 
public comment was necessary on this DOD reporting requirement. Once 
this process is completed, USSOCOM will immediately begin implementing 
this requirement. In the meantime, the Acquisition Executive has 
developed a portal based Services Acquisition Management site in order 
to ensure increased transparency and accountability of all service 
acquisitions. In accordance with USSOCOM's original response to 
Congress, the Services Acquisition Management site is currently under 
development to include the capability for direct labor hour/related 
cost data required under 8108(c) to be collected and reported in the 
Inventory of Contracts for Services (ICS) on a yearly basis. Initial 
Operating Capability is expected by the end of fiscal year 2012.
    Ms. Bordallo. There was a lot of discussion last year about the 
``exceptions'' to the FY10 civilian levels Secretary Gates mandated. 
Please provide a detailed list of all exceptions SOCOM has had approved 
to date and the reason for those exceptions, as well as any exceptions 
that were requested but not approved, and the justification for such.
    Admiral McRaven. Exceptions were granted for 133 USSOCOM positions 
(no requested exemptions were disapproved):
    a. Special Operations Research, Development, and Acquisition Center 
(SORDAC), 91 positions. One of USSOCOM's Title 10 authorities is to 
ensure the interoperability of SOF equipment throughout Department of 
Defense (DOD), including the development and acquisition of special 
operations-peculiar equipment, materiel, supplies, and services. This 
activity requires a substantial acquisition workforce to properly 
execute. These efforts are in line with the Defense Acquisition 
Workforce Growth Strategy to rebalance the acquisition workforce 
outlined in Resource Management Decision (RMD) 802. Additionally, they 
afford SORDAC the opportunity to transition its internal acquisition 
capabilities from contractor based support, establish a more stable mix 
of acquisition resources, and provide better management of acquisition 
programs. The exemption includes acquisition, contracting, finance, 
administration, logistics, and engineering positions.
    b. Communications Systems Directorate (J6), 17 positions. J6 
provides continuous support for the operations and maintenance of 
USSOCOM's Information Technology environment, supporting 74,000+ 
personnel around the world, through the Special Operations Forces 
Information Technology Contract (SITEC). This is managed by the 17-
person Information Technology Management Office. The freeze on Office 
of Secretary of Defense (OSD) full-time hiring was determined to 
adversely affect the implementation of this office and the $572M SITEC 
contract. The SITEC contract consolidated multiple task orders into a 
single contract as part of USSOCOM's Program Objective Memorandum 12 
efficiencies effort with an approximate savings of $60M a year.
    c. Financial Management Directorate, 3 positions. USSOCOM is the 
only Combatant Command (COCOM) with Service-like responsibilities which 
require management of a Major Force Program and the submission of 
financial statements. This exception converts 4 contractors into 3 
civilian positions to meet the Secretary of Defense's (SECDEF) 
direction to achieve efficiencies and have civilians accomplish 
inherently governmental work. Conversion to Federal civilians is 
required for the continual manning, long-term stability and expertise 
in providing accounting support for over $2B executed by USSOCOM.
    d. Joint Military Information Support Command (JMISC), 22 
positions. These positions provide support to, and operate with and 
through USSOCOM and the Geographic Combatant Commands (GCCs). 
Additionally, they work closely with the interagency to support efforts 
to combat violent extremism. As the only DOD Command organized to 
provide transregional and strategic military information support to the 
United States Government's efforts in countering violent extremist 
organizations, these 22 positions, were determined to be critical.
    Ms. Bordallo. As efficiencies are being executed across SOCOM, is 
the workload and functions associated with those being tracked as 
eliminated or divested through the annual inventory of functions?
    Admiral McRaven. In response to the Office of the Secretary of 
Defense (OSD), programs were either eliminated or reduced to meet 
financial targets mandated and funds were transferred to higher 
priority or operationally oriented activities. Workload and functions 
associated with these reductions were not directed to be tracked in the 
annual inventory of functions; however, USSOCOM internal processes are 
in place to maintain continued compliance with the direction of OSD.

    Ms. Bordallo. President Obama has made reducing reliance on 
contractors and rebalancing the workforce a major management initiative 
of his Administration. In your opinion, given the restrictions on the 
size of your civilian workforce imposed by the Office of the Secretary 
of Defense, does the current TRANSCOM workforce construct reflect an 
appropriately balanced workforce between civilian, military and 
contract support across all major capabilities, functional areas, and 
requirements? Please support your response with workforce and cost data 
as required by statutes and policies.
    General Fraser. Given the constraints placed on the size of the 
military and civilian positions, the TRANSCOM workforce is 
appropriately balanced across all major capabilities, functional areas, 
and requirements. TRANSCOM is currently reviewing its Inventory of 
Contracted Services (ICS) to identify economies of scale or scope, 
potential areas of risk, overreliance on contracted services, and 
opportunities for efficiencies. The ICS will be used to make decisions 
regarding workforce rebalancing to include the potential realignment of 
contracted workload to civilian performance.
    Ms. Bordallo. Did TRANSCOM seek relief from DOD-mandated civilian 
personnel levels in order to insource contracted work more cost-
effectively performed by civilians?
    General Fraser. Yes, in Sep 2010 memo to DEPSECDEF, TRANSCOM sought 
exceptions to the manpower cap in order to continue with insourcing 
initiatives. All TRANSCOM insourcing initiatives included workload that 
would be more cost-effectively performed by civilians.
    Ms. Bordallo. To what extent has TRANSCOM used insourcing to reduce 
reliance on contractors, rebalance its workforce, and generate 
efficiencies?
    General Fraser. Although TRANSCOM was not specifically targeted for 
insourcing, the Command made the decision to examine its reliance on 
contractors and explore the possibility of converting selected contract 
workload to civilian performance. Potential candidates were nominated 
for insourcing, and we conducted a feasibility assessment, market 
research, and cost benefit analysis for each nomination. Based on this 
analysis, TRANSCOM insourced 80 FTEs in FY11 and FY12. The insourcing 
initiatives involved nine different contracts and included functions 
such as training, administration, public affairs, planning, analysis, 
and program management support. As a result of its insourcing efforts, 
TRANSCOM reduced its reliance on contractors, realigned resources, and 
generated efficiencies within the Transportation Working Capital Fund 
(TWCF). TRANSCOM saved approximately $3.5M by converting contract FTEs 
to in-house performance. Cost savings were determined IAW Directive-
Type Memorandum (DTM) 09-007, ``Estimating and Comparing the Full Costs 
of Civilian and Military Manpower and Contract Support.'' This 
represents an average savings of 20% over contract labor costs. 
TRANSCOM is now reviewing its Inventory of Contracted Services (ICS) to 
identify potential insourcing opportunities for the future.
    Ms. Bordallo. Are you comfortable that all contracted services 
currently supporting TRANSCOM are the most cost-effective and risk-
averse source of labor?
    General Fraser. I am confident that the contracted services 
supporting TRANSCOM are the most cost-effective and risk-averse source 
of labor. TRANSCOM, like so many other DOD organizations, often relies 
on contracted services in order to be responsive to our customers. In 
some cases, it is also less cost-effective and more risky to use a 
civilian workforce due to the length of time required to justify, 
source, and hire additional civilian positions. TRANSCOM is currently 
reviewing its Inventory of Contracted Services (ICS) to identify 
economies of scale or scope, potential areas of risk, overreliance on 
contracted services, and opportunities for efficiencies. The ICS will 
be used to make workforce shaping decisions such as the potential 
realignment of workload to civilian performance.
    Ms. Bordallo. What processes are in place within TRANSCOM to ensure 
the workload associated with reductions being made in the civilian 
workforce is in fact ceasing, as opposed to being absorbed by other 
labor sources such as contractors or military personnel?
    General Fraser. The Manpower and Personnel Directorate documents 
all manpower increases/reductions on the TRANSCOM Joint Table of 
Distribution (JTD). In addition, a narrative description is kept to 
explain the historical manpower changes throughout the Command since 
1987. These documents allow us to track the reductions made in the 
civilian workforce and to ensure that eliminated workload is not 
absorbed by other labor sources. However, in the case of arbitrary 
reductions, COCOMs are forced to downsize their workforce without the 
elimination of workload. As a result, we are then forced to absorb the 
remaining workload within our existing resources.
    Ms. Bordallo. In the TRANSCOM plan for the inventory of contracted 
services in accordance with section 8108(c) of last year's 
appropriations act, signed by your Director of Acquisition on September 
26, 2011, and submitted to the congressional defense committees as part 
of the consolidated DOD plan, TRANSCOM planned to begin compliance in 
October 1, 2011. How many contract actions have been executed with the 
new requirements since October 1, 2011?
    General Fraser. TRANSCOM is compiling the FY2011 Inventory of 
contracted services in accordance with the aforementioned plan. Our 
FY11 inventory will be provided in time to meet the June 30, 2012 
submission date. Beginning October 1, 2011, our plan called for our 
contractor full-time equivalents for airlift services (the new 
requirements) to be based on actual cost data submitted by our airlift 
carriers. As described in our plan, TRANSCOM will use the methodology 
of calculating contractor full-time equivalents for the FY12 inventory 
of contracted services based on actual cost data submitted by airlift 
carriers. Preliminary analysis depicts from 1 October 2011 through 16 
March 2012, TRANSCOM has executed 2,089 centralized airlift contract 
actions totaling $2.6B. In addition 1,552,120 decentralized actions 
were executed totaling $316.5M.
    Ms. Bordallo. There was a lot of discussion last year about the 
``exceptions'' to the FY10 civilian levels Secretary Gates mandated. 
Please provide a detailed list of all exceptions TRANSCOM has had 
approved to date and the reason for those exceptions, as well as any 
exceptions that were requested but not approved, and the justification 
for such.
    General Fraser. The TRANSCOM Chief of Staff sent a memo to 
DEPSECDEF on 17 Sep 2010 entitled, ``Exception to the FY10 Cap on 
Authorized and Funded Manpower Billets.'' In this memo, TRANSCOM 
requested exceptions for 190 billets for programmed increases and 
identified insourcing goals. Of the 190 exceptions, 155 were approved 
and documented in RMD 703. However, TRANSCOM did not receive detailed 
information outlining the specific exceptions that were approved/
disapproved. The following is a summary of all exceptions that were 
requested by TRANSCOM. Of these exceptions, all were for Air Force 
civilian Full Time Employees (FTEs). A total of 155 were approved; 80 
for insourcing initiatives and 75 for programmed growth in new mission 
areas. Position Type of Resource Series Quantity Security Specialist 
Air Force Civilian 0080 1 IO (General Military Analysis) Air Force 
Civilian 0132 4 HR Specialist Air Force Civilian 0201 4 Misc Staff 
Positions Air Force Civilian 0301 17 Misc Tech/Support Positions Air 
Force Civilian 0303 6 Administrative Air Force Civilian 0318 7 
Management/Program Analyst Air Force Civilian 0343 8 Logistic 
Specialist Air Force Civilian 0346 11 Financial Mgt/Cost Analyst Air 
Force Civilian 0501 7 Accountant Air Force Civilian 0510 6 Budget 
Analyst Air Force Civilian 0560 13 Civil Engineer Air Force Civilian 
0801 1 Computer Engineer Air Force Civilian 0854 11 Attorney Air Force 
Civilian 0905 2 Paralegal Air Force Civilian 0950 1 Public Affairs 
Specialist Air Force Civilian 1035 1 Visual Info Specialist Air Force 
Civilian 1084 2 Acquisition Program Specialist Air Force Civilian 1101 
9 Procurement Analyst Air Force Civilian 1102 6 Contract Specialist Air 
Force Civilian 1102 15 Operations Research Analyst Air Force Civilian 
1515 9 Transportation Specialist Air Force Civilian 2101 15 
Transportation Asst Air Force Civilian 2102 1 Computer Tech Air Force 
Civilian 2204 2 IT Specialist Air Force Civilian 2210 31 TOTAL 
EXCEPTIONS 190
    Ms. Bordallo. As efficiencies are being executed across TRANSCOM, 
is the workload and functions associated with those being tracked as 
eliminated or divested through the annual inventory of functions?
    General Fraser. Although TRANSCOM has not been targeted in DOD's 
recent round of reductions, the Command is proactively examining its 
capabilities and functions to identify efficiencies. We have just begun 
the process of rewriting the TRANSCOM Strategic Plan in light of the 
dynamic global environment and shifting National/Departmental 
strategies. During this process, we will be looking at TRANSCOM's 
capabilities and functions to determine how the Command will evolve 
over the next five years and how to effectively realign and refocus our 
resources. As decisions are made to realign workload, the data will be 
tracked through the annual inventory of functions. In addition, as 
TRANSCOM reviews its Inventory of Contracted Services, we will identify 
potential areas of risk and opportunities for efficiencies. The results 
of this review will be used to make strategic decisions regarding the 
composition and potential rebalancing of the TRANSCOM workforce.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. Over the past 3 years Iran has steadily and 
significantly developed and perfected its nuclear programs and weapons 
delivery platforms. We know that Iran is now capable of producing its 
own domestic fuel rods and that it has been enriching its low-enriched 
uranium to a fissile concentration of about 20 percent. Weapons grade 
material would merely require further enrichment. We also know that 
Iran has been perfecting its launch vehicle technology and may be about 
to use a Simorgh-class launch vehicle to place a satellite into orbit. 
The Director of National Intelligence James Clapper told this Committee 
that the Simorgh design ``could be used for an ICBM-class vehicle.'' 
Iran's leadership has repeatedly threatened to destroy the nation of 
Israel and drive the U.S. from the region. If we had the political will 
to do so, are we prepared and able to assist Israel militarily if 
Israel finds it necessary to carry out a strike against Iranian 
facilities and how will our announced strategy to pivot to the Pacific 
as we continue to draw down in the Middle East impact our ability to 
defend our allies and interests in the Middle East as Iran continues to 
develop its nuclear programs and perfect its launch vehicle capability?
    General Mattis. We are ready to provide the President with military 
options to protect our allies and United States interests should he 
chose to do so. We continuously assess the strategic environment and 
adjust our forces and posture, in close coordination with our partners, 
to ensure we are prepared to defend our interests and deter potential 
aggressors. We will retain the ability to defend our allies and 
interests throughout the Middle East as we shift emphasis according to 
our broader defense strategy.
    Mr. Franks. As you know, hard-line Islamists and Salafists have 
come to power in Egypt in the past year, and it is the Administration's 
intention to continue to provide foreign aid to Egypt despite the 
Islamist and Salafist government's anti-U.S. and anti-Israel sentiments 
and interests. What are we doing to ensure that this assistance will 
not be used to undermine U.S. interests in the region, how do you see 
the U.S. and Egypt relationship evolving over the next few years, and 
what challenges do we need to be prepared for as we continue to 
withdraw our forces from the Middle East?
    General Mattis. The cornerstone of our relationship with Egypt has 
been the military-to-military ties developed over many years through 
our security assistance and various exercises and engagements with the 
Egyptians. The recent Secretary of State action to release security 
assistance funds to the Egyptian Armed Forces will help to secure 
United States interests in Egypt by sustaining the high level of 
military to military interaction we value. At this time, we have no 
reason to believe this assistance will be used to undermine our 
interests in the region. We are seeing the emergence of a new Egypt. No 
one can be certain of the course that Egypt will take, but the 
character of the Egyptian people is unlikely to embrace policies as 
radical as past Muslim Brotherhood and Salafist statements indicate. In 
particular, I believe we can sustain our military ties though continued 
engagement, training and exercises like BRIGHT STAR, and foreign 
military financing program. The reduction of United States troops in 
forward presence in the Middle East will challenge our reaction time to 
potential regional events requiring military intervention. Rapid 
deployment and sustainment through the Suez Canal and Egyptian airspace 
is vital to force projection. Our continued security assistance 
programs with the Egyptians will help to secure these privileges while 
sustaining our military linkage as Egypt transitions through this 
uncertain time.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CONAWAY
    Mr. Conaway. What are the utilization rates and average cargo loads 
(# of pallet positions and load weight) of C-27Js in Afghanistan and 
what are the utilization rates of C-130s in Afghanistan?
    General Mattis. [The information referred to is classified and 
retained in the committee files.]

    Mr. Conaway. What are the utilization rates and average cargo loads 
(# of pallet positions and load weight) of C-27Js in Afghanistan and 
what are the utilization rates of C-130s in Afghanistan?
    General Fraser. The C-27s have flown 108.5 hours/month while 
deployed to Afghanistan (Aug 11-Feb 12) while the fleet averages were 
32.8 hours/month in FY11 and 46.5 hours/month in FY12. The number of 
deployed aircraft has been two aircraft for the entire period.
    The C-130 utilization rate in Afghanistan has averaged over 100 
hours/month the last 3 fiscal years (FY10-124.3, FY11-105.3, FY12-
108.1) while the whole fleet has stayed below 50 hours (FY10-47.0, 
FY11-46.3, FY12-45.1).
    The average cargo load information is not available to USTRANSCOM 
or AMC. The information for Afghanistan cargo loads should be requested 
from CENTCOM.
    Mr. Conaway. The MCRS-16 study recommends using C-17s for 
intratheater airlift but several senior mobility leaders in the past 
have been concerned that we were overusing the 30 year/30,000 hour life 
expectancy of that airframe too quickly. Can you tell me what the 
average age and number of hours our C-17 fleet currently has on them?
    General Fraser. The average age of the fleet is 8.9 years (as of 
Mar 2012); per tail average flying hours is 10,105 hours. As operations 
change and either increase or decrease the average hours over time will 
follow accordingly.
    Mr. Conaway. What percentage of TRANSCOM's airlift requirements for 
intertheater and intratheater airlift is flown by foreign contract 
airlift contractors? How much money do we spend annually on foreign 
airlift contracts for both intertheater and intratheater airlift?
    General Fraser. In 2011, approximately 7% of the intertheater cargo 
airlifted on 618 Air Operations Center, Tanker Airlift Control Center 
missions was airlifted on foreign aircraft. USTRANSCOM does not have 
data on intratheater airlift under the operational control of other 
COCOMs. The amount USTRANSCOM spent for charter contracts with foreign 
airlift contractors is as follows:
    FY11 Intertheater and Intratheater CRAF Contracts: $372.2M
    FY11 Intratheater rotary wing contracts: $213M
    FY11 Intratheater Korean Airlines contract: $1.9M
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. General Mattis, if possible to answer at an 
unclassified level, how many deaths of U.S. soldiers in Iraq can be 
linked to Iranian-supplied explosives?
    General Mattis. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WITTMAN
    Mr. Wittman. General Mattis, with regard to AQAP and Yemen, you 
said ``the new Yemeni government will need assistance in order to 
reorganize its military under civilian control and build capacity to 
deal with critical national security threats. We are supporting 
military professionalization and look to continue our relationship in 
the fight against Al Qaeda in the Arabian Peninsula (AQAP) in 
accordance with our national policy. We expect increased Iranian 
malfeasance in an attempt to undercut Yemen's efforts to create a 
peaceful path to the future.'' In light of recent events in Yemen, how 
do you manage the situation there and mitigate the spread of the AQAP 
influence across the Peninsula and in to Eastern Africa?
    General Mattis. [The information referred to is classified and 
retained in the committee files.]

    Mr. Wittman. ADM McRaven, with the pending drawdown and decrease of 
conventional forces in Afghanistan and the strategy to increase SOCOM's 
manning, budget, and operations, it is certain that Special Operations 
Forces (SOF) will remain in Afghanistan well past 2014. Who will enable 
these forces that are left behind in training, advisory, and key direct 
action roles? What types of enablers has SOF had to rely on from 
conventional capabilities that are currently deployed in Afghanistan? 
Have these enablers been as available as needed, and, if not, what must 
SOCOM do to ensure it has the capability needed to execute its missions 
effectively in the future? General Mattis stated that ``the insurgency 
remains both resilient and capable, so we must remain vigilant and 
resolved as our gains are reversible.'' The fear here is that if we 
spread SOF too thin in Afghanistan, due to the desire to withdraw 
conventional forces. How do you see SOF executing their missions 
throughout Afghanistan against a resilient and capable insurgency if we 
have a decreased conventional footprint? What level of risk are your 
commanders on the ground assuming with this plan?
    Admiral McRaven. The road ahead in Afghanistan is undoubtedly 
complex and daunting with recent events highlighting this fact. 
However, SOF, General Purpose Forces (GPF), NATO and Coalition SOF and 
our Afghan partnered forces are uniquely postured and capable of 
addressing these challenges. International Security Assistance Forces 
(ISAF) has laid out a balanced and comprehensive strategy that 
identifies and addresses the resulting impacts of this scheduled force 
reduction. In that strategy Counter Terrorism and Village Stability 
Operations (VSO) and Security Force Assistance (SFA) missions remain 
dominant SOF lines of effort now and into the future. SOF command teams 
and planners across Afghanistan and here at home are working diligently 
to mitigate risk at every level. They are working closely with ISAF, 
U.S. Central Command (CENTCOM) and the interagency community to ensure 
sufficient logistical, aviation, Intelligence Surveillance and 
Reconnaissance, medical and Explosive Ordinance Disposal support 
remains consistently available. We are managing this very closely to 
preclude our forces from being arrayed too thinly and to ensure we 
maximize their results. We must also remember that Afghan security 
forces will remain in many of these areas where our GPF are drawing-
down. Additionally, there are approximately 20K Afghans partnered with 
U.S. and Coalition SOF. These capable and evolving forces will offset 
the impact of scheduled Phase II U.S. force reduction. By 2014 this 
partnered force will substantially grow as well as their collective 
capability, allowing for further U.S. force off-ramps and risk 
mitigation.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. SCHILLING
    Mr. Schilling. You have mentioned the need for USCENTCOM to be 
flexible and able to balance interests and needs. What type of 
flexibility is most needed in our forces--manpower, platforms, or 
training in different capabilities in our troops?
    General Mattis. The end of Operation NEW DAWN and the ongoing 
evolution and transition of Operation ENDURING FREEDOM in Afghanistan 
provide a strategic opportunity to re-evaluate our requirements for 
conventional forces and ``boots on the ground.'' We see the USCENTCOM 
Area of Operations requiring a sustained joint presence with a 
pronounced naval character--supported by embarked troops, agile special 
operations forces, strong aviation elements and an expeditionary Army 
and Marine Corps with an increasing interdependence, working by, with, 
and through our regional partners. These forces and capabilities are 
developed and provided by the Services.
    Mr. Schilling. You point to Iran being a major factor of 
destabilization and violence in the region. How do you view the success 
of the recent sanctions on Iran and how do you see them changing their 
strategies if at all because of these sanctions?
    General Mattis. [The information referred to is classified and 
retained in the committee files.]
    Mr. Schilling. We are in a situation where fiscal constraints must 
be brought to every decision. Will our partners and allies be able to 
pick up where we can no longer act due to fiscal constraints?
    General Mattis. I believe the United States and its Coalition 
Partners, as the state of affairs currently exists, will be capable of 
overcoming the challenges presented by fiscal constraints. Our allies 
have been very supportive of our efforts in the region and have 
provided a considerable number of troops, resources, and/or money over 
the last decade. However, many of our Coalition Partners are 
experiencing the same fiscal constraints the United States is 
experiencing, and in some cases, even worse. In the face of 
debilitating deficit spending, monetary support from our allies for our 
efforts in the region--especially beyond 2014--will likely decrease. 
Therefore, I expect some support will be scaled back in the near 
future. Nevertheless, our broad alliance is composed of nations with 
varying advantages that can be leveraged to overcome fiscal challenges. 
For example, the United Arab Emirates have the fiscal resources and 
will to provide similar or expanded levels of support for our efforts. 
Other allies, like Jordan, have demonstrated a strong political will 
despite their monetary constraints by providing highly trained special 
operations forces and capabilities funded by wealthier nations like the 
United Arab Emirates.
    It is critical that our partners and allies contribute to the 
responsibility for ensuring the long-term peace and security of 
Afghanistan and the region; they can do so in five key areas. First, 
our partners and allies can and have provided adequate financial 
support to the Afghanistan National Security Forces. Second, they can 
continue funding their troop levels necessary to achieve a complete, 
conditions-based withdrawal from Afghanistan. Third, they can resource 
robust security assistance and cooperation efforts with the Afghanistan 
National Security Forces in areas of common interest, to include 
training and exercises, equipment, counterterrorism, 
counterproliferation, air defense, and border security. Fourth, they 
can provide adequate funding for Afghan infrastructure beyond those 
projects currently funded by the United States Commander's Emergency 
Response Program and the Afghan Infrastructure Fund. Lastly, our 
partners and allies can take increased financial responsibility for 
facilitating regional economic development and integration, to include 
properly resourcing such critical efforts as the New Silk Road 
Initiative.
    Finally, although we are facing a reduction in available resources, 
our efforts will also cost less. General Allen's Campaign Plan not only 
recognizes the fiscal realities the Coalition confronts, but also the 
anticipated reduction in costs thanks to the transition to Afghan lead 
and a smaller coalition footprint. This is already manifested by our 
Fiscal Year 2013 Afghan Security Forces Fund submission.
    Mr. Schilling. In this new technical age we are seeing that cyber 
conflict is a new realm of conflict and you specifically mentioned 
Regional Web Interaction Program activities that the U.S. is doing to 
address extremist organization recruiting and fund raising. We also 
have examples of what cyber attacks can do as we saw with Stuxnet, the 
computer worm that greatly damaged Iran's nuclear enrichment 
infrastructure. Are there other cyber efforts that we are pursuing and 
how will these capabilities affect U.S. posture in the Middle East?
    General Mattis. [The information referred to is classified and 
retained in the committee files.]

    Mr. Schilling. You state that currently Special Operations 
currently constitutes 8% of the forces in Afghanistan and is the lead 
for two major elements of operations. What is your opinion on the 
continued success of these operations as we draw down in Afghanistan? 
What are the difficulties you face when ensuring this continued 
success?
    Admiral McRaven. Success is achievable if our strategic aims in 
Afghanistan remain centered on precluding the reemergence of 
transnational terrorism and fostering governance stability. In pursuit 
of these objectives SOF's center of gravity encompasses Afghan 
empowerment, consistent pressure on insurgent networks and 
organizational adaptability and innovation. We must remain focused on 
governance development in key rural areas through Village Stability 
Operations (VSO) and nest this effort with a comprehensive 
Counterterrorism effect, necessary to create the time and space for 
governance and security capacities to evolve at the district level. 
Today, we have achieved relative stability in a majority of the 74 VSO 
locations where we are employing this strategy. Recently, during both 
the Koran burning incident and the tragedy in Southern Afghanistan, 
there have been no protests near village stability platforms or those 
that have occurred have been resolved by village and district leaders 
without incident. This strategy of empowering traditional governance 
structures, connecting it to formal governance at the district level, 
and supporting it by limiting the effects of insurgent networks, is 
positively influencing four million Afghans (13% of the population), 
which has definitely improved their perception of the Government of 
Afghanistan. Challenges affecting success will be defined in terms of 
interagency support toward governance development, national policy 
direction and any evolving security priorities.
    Mr. Schilling. You said that you have been addressing issues of 
fiscal constraint by working with our allies and partners. With our 
drawdown and with the cuts to our budget, can our allies and partners 
take on enough of the work to still make our missions viable, capable, 
and successful?
    Admiral McRaven. Our coalition partners have been instrumental to 
our efforts in Afghanistan. Our coalition partners are contributing 
nearly 8,000 troops to Operation Enduring Freedom and to the 
International Security Assistance Force (ISAF) in Kabul, making up over 
half of the 15,000 non-Afghan forces in Afghanistan at ISAF. Coalition 
forces have made significant contributions in the war against terrorism 
across the spectrum of operations. Specific contributions include, but 
are not limited to: providing vital intelligence, personnel, equipment 
and assets for use on the ground, air and sea. Coalition members also 
have provided liaison teams, participated in planning, provided bases 
and granted over-flight permissions, as well as sizable contributions 
of humanitarian assistance. Yes, our allies and partners have been and 
will continue to be key factors in making our missions viable, capable 
and successful.

    Mr. Schilling. You specifically mentioned that the transportation 
infrastructure in the U.S. is a concern for TRANSCOM. Can you speak to 
the savings the DOD would see if the U.S. took a long-term approach to 
a transportation bill that allows for improvements to our 
infrastructure?
    General Fraser. As the DOD does not invest in civilian highway 
infrastructure, we would not see any costs or savings in this area. The 
DOD works in partnership with the United States Department of 
Transportation to identify DOD's requirements for the civil sector 
transportation infrastructure and integrates these requirements into 
the civil sector planning cycle. DOD relies on the civil sector's 
highways, railroads, and ports to efficiently deploy our military 
forces for our National Defense Programs. This partnership ensures our 
transportation infrastructure is capable of deploying our military 
forces. Operationally, the DOD does not associate any increased costs 
based upon condition or operation of the highway infrastructure.
    Mr. Schilling. How will your networks and distribution chains be 
altered to address the new force structure? Will you be requiring 
further MILCON expenditures to make this shift? How will the Pacific/
Asia focus affect your usage of Guam and other overseas transportation 
routes?
    General Fraser. We continuously analyze our network to maintain a 
measure of agility and align with the current force structure used to 
sustain distribution operations anywhere on the globe. We will continue 
our partnership with Pacific/Asian nations to ensure our network 
remains effective and efficient to support global mobility needs. In 
terms of MILCON expenditures, USTRANSCOM continuously collaborates with 
global stakeholders to ensure that vital en route locations are 
developed and maintained to support global mobility operations. This 
collaboration has been ongoing in advance of the shift in focus; 
therefore we do not see a major increase in MILCON beyond what already 
exists in our En Route Infrastructure Master Plan. USTRANSCOM has 
always viewed Guam infrastructure as vital to the successful execution 
of distribution operations in South East Asia, North East Asia, and 
Oceania, and will continue to advocate for infrastructure improvements. 
For example, USTRANSCOM continues to partner with USPACOM and Defense 
Logistics Agency--Energy (DLA-E) to advocate for numerous 
infrastructure improvements. Anderson AFB and Apra Harbor combine to 
provide Guam with a highly capable multimodal option that can be used 
to efficiently and effectively satisfy warfighter needs and 
requirements. Guam will continue to be a much needed and important 
Pacific/Asia en route location; vital to USTRANSCOMs and USPACOMs 
global mission.
    Mr. Schilling. You state that routing mobility airlift over the 
polar ice caps will mitigate a number of issues for routes to CENTCOM. 
Have the other Arctic nations, including Russia, been helpful in this 
or have there been roadblocks to this work?
    General Fraser. Our Arctic overflights to and from Manas and Bagram 
Air Bases are routed through Russian and Kazakhstani airspace. Both 
countries have been very helpful in providing overflight permissions, 
especially when we are moving passengers and changing out KC-135 
aircraft for routine maintenance. We have had no unnecessary 
roadblocks, and do not anticipate any at this time.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. RUNYAN
    Mr. Runyan. As had been noted in the FY13 Posture Hearing before 
the Committee, U.S. Air Force officials have elsewhere stated that we 
are literally ``flying the blades off the 47,'' referring to Chinooks. 
Even our strategic airlift fleet has dramatically exceeded its planned 
program of record. Since 2002, C-17s have exceeded their program by 
103,581 hours, and C-5s have exceeded theirs by 151,570 hours, 
according to Committee research. a. Can you then explain to the 
Committee how Air Mobility Command can overfly these levels, nominally 
for training purposes, when CRAF carriers would have been cheaper, 
reduced the tremendous recapitalization costs we will soon face, and 
would have enabled these American carriers to re-invest in more fuel-
efficient aircraft to support the Department?
    General Fraser. Since 2002, the C-5 overfly was 30% over the 
programmed hours and the C-17 overfly was 6% over programmed hours. 
Both overfly conditions were the result of wartime and contingency 
operations. In 2002-2005, C-5 and C-17 units were activated to support 
deployments to Iraq and Afghanistan and constitute the overfly for that 
period. In 2010-2011 the overfly was driven by the surge requirements 
in Afghanistan, coupled with Haiti operations, OPERATION TOMODACHI 
tsunami response, movement of large mine resistant vehicles, and Libya 
operations. The use of CRAF carriers would not have reduced the C-5 and 
C-17 overfly. The need to operate in potentially hostile areas often 
precluded the use of commercial aircraft in many missions. 
Additionally, the inability of CRAF aircraft to carry the larger pieces 
of oversize and outsize equipment frequently dictated the use of 
military aircraft.
    Mr. Runyan. As had been noted in several news sources last month, 
one of our Nation's largest CRAF carriers, Global Aviation Holdings, 
has unfortunately declared bankruptcy. Among the reasons cited by the 
company includes a decrease in sales due to our withdrawal from Iraq. 
Though the Department is not expected to bail-out one defense 
contractor, this announcement seems to contradict Committee research 
which indicates that the Air Force spent $2.2 billion on strategic 
airlift on foreign, non-CRAF carriers in just the last five years. Can 
you reassure the Committee that the Air Force has maintained its 
commitments to America's CRAF carriers when billions of taxpayer 
dollars are being diverted to foreign air carriers?
    General Fraser. In the last 5 years, more than 98% of the $2.2B was 
contracted through CRAF carriers who then subcontracted to foreign 
companies. Normal practice and policy require that contracts for the 
use of foreign carriers be made through CRAF carriers. Policy limits 
the use of foreign carriers to situations in which CRAF carriers are 
either unavailable or unable to perform the missions. For example, U.S. 
carriers may be restricted from operating at locations due to political 
constraints or FAA flight prohibitions.
    Mr. Runyan. As part of the Air Force's Mobility Capability & 
Requirements Study 2016, the DOD will now use the least intensive 
contingency scenario as the baseline for our strategic airlifter fleet. 
However, this will not change the requirements of our Services to 
accomplish their mission, and so this report actually compensates for 
the reduced size of the U.S. military strategic airlift fleet by 
increasing Department use of commercial carriers by 5 million-ton-miles 
per day. What steps need to be taken to ensure that American commercial 
CRAF carriers are ready for this significant increase in strategic lift 
requirements? The Department has approved a significant number of non-
CRAF freight forwarders as DOD air carriers for operations in support 
of Department cargo movements. Some of these non-CRAF air carriers are 
also foreign companies so how can we expect American commercial 
carriers to have the capital to sustain and modernize their fleets when 
DOD air cargo is being moved outside CRAF carriers?
    General Fraser. Mobility Capability and Requirements Study 2016 
(MCRS-16) increased the required bulk cargo capability for the Civil 
Reserve Air Fleet (CRAF) to 25.5 million ton-miles per day (MTM/D) from 
the Mobility Requirements Study 2005 (MRS-05) requirement of 20.5 MTM/
D. The current CRAF bulk cargo capability is 29.34 MTM/D, which exceeds 
the requirements of all MCRS-16 cases. It is DOD policy to preserve 
commercial business for CRAF carriers, whenever possible. In the last 5 
years, more than 98% of $2.2B of contracted lift was through CRAF 
carriers who then subcontracted to foreign companies. Normal practice 
and policy require that contracts for the use of foreign carriers be 
made through CRAF carriers. Policy limits the use of foreign carriers 
to situations in which CRAF carriers are either unavailable or unable 
to perform the missions. For example, U.S. carriers may be restricted 
from operating at locations due to political constraints or FAA flight 
prohibitions.
    Mr. Runyan. Defense contractors who provide logistics support to 
U.S. forces are required by Congress to use the DOD's Defense 
Transportation System for ocean transportation through VISA carriers. 
DOD policies also mandate air transportation with CRAF carriers but 
many major DOD and DLA contracts do not require CRAF air movements. Two 
of the main contract vehicles which require large air movements are 
DLA's Prime Vendor contracts and the Army's LOGCAP. With that said, and 
as the Distribution Process owner, can you confirm your actions to 
maximize CRAF use rather than allow Government contractors to decide if 
they use CRAF or foreign flag carriers? To what extent are foreign 
carriers being used in these contracts even when US-based CRAF carriers 
are available?
    General Fraser. CRAF participation is a mandatory prerequisite for 
award of all USTRANSCOM airlift contracts utilizing CRAF-eligible 
aircraft. Additionally, the Defense Federal Acquisition Regulation 
states that: ``For contracts that will include a significant 
requirement for transportation of items outside CONUS, include an 
evaluation factor or subfactor that favors suppliers, third-party 
logistics providers, and integrated logistics managers that commit to 
using carriers that participate in one of the readiness programs (e.g., 
Civil Reserve Air Fleet and Voluntary Intermodal Sealift Agreement).'' 
To emphasize the importance of this regulatory requirement, on 28 Jul 
11, OSD AT&L issued a memorandum to DOD emphasizing the importance of 
promoting the use of CRAF and VISA carriers within DOD supply contracts 
where the vendor arranges significant transportation outside the United 
States. Regarding the DLA Prime Vendor contracts and the Army's LOGCAP 
program, USTRANSCOM does not have visibility into DLA and Army 
contracts/programs.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. How would you assess the performance of the E-8C JSTARS 
within CENTCOM in 2011?
    General Mattis. [The information referred to is classified and 
retained in the committee files.]
    Mr. Scott. What were the accomplishments of the U.S. Coast Guard in 
CENTCOM in 2011?
    General Mattis. [The information referred to is classified and 
retained in the committee files.]
    Mr. Scott. Are U.S. flag and general officers banned from visiting 
any countries within CENTCOM? If so, which countries?
    General Mattis. Military travel for all ranks to Iran and Syria is 
currently banned due to perceived threats and the lack of diplomatic or 
consular relations with the United States. Military travel to the other 
countries within our area of responsibility is also restricted to 
mission-essential visits only, including flag and general officers. 
CENTCOM closely follows the Department of Defense (DOD) Foreign 
Clearance Guide (FCG) which directs policy and restrictions for 
military personnel traveling outside the United States in addition to 
observing Department of State travel warnings.
    Mr. Scott. What is the role of military bands within CENTCOM and 
are they a cost-effective way of bringing people together and fostering 
greater understanding?
    General Mattis. This question is better answered by the Services 
because there are no bands organic to CENTCOM.

    Mr. Scott. What is the relationship between the U.S. Coast Guard 
and U.S. Special Operations Command?
    Admiral McRaven. The Coast Guard and U.S. SOCOM enjoy a close and 
special relationship. Through its post-9/11 authorities, SOCOM has a 
Special Operations Support Team Chief positioned at Coast Guard 
Headquarters. Similarly, there is a Coast Guard Captain stationed at 
SOCOM HQ in Tampa. Both headquarters enjoy the benefits of global 
synchronization, interaction of their specialized maritime forces, and 
exchange mutually beneficial tactics, techniques, and procedures, such 
as tactical flotation and boarding contacts of interest. The Coast 
Guard is the only service to send active duty candidates to the Navy's 
SEAL training program, graduating four officers who serve with Naval 
Special Warfare Commands.

    Mr. Scott. How much a year is spent berthing Military Sealift 
Command Ships at private docks instead of U.S. Navy piers?
    General Fraser. In FY11, Military Sealift Command spent $5,358,630 
on berthing costs for 11 ships at 5 different commercial layberth 
locations. The $5.3M is for the fixed price of the berth itself and 
does not include reimbursable expenses for things such as shore power, 
security, water, additional soundings etc.
    Mr. Scott. What is the relationship between the U.S. Coast Guard 
and U.S. Transportation Command?
    General Fraser. We collaborate with the U.S. Coast Guard (USCG) on 
a number of significant issues, including piracy, the Arctic, port 
opening and inspections for our reserve fleet. From an operational 
standpoint, U.S. Transportation Command (USTRANSCOM) works closely with 
the USCG on antipiracy/counterpiracy capabilities and best practices. 
Additionally, we worked together to craft the Department of Defense/
Department of Homeland Security Arctic White Paper, which was recently 
approved by both General Jacoby, Commander, United States Northern 
Command and Admiral Papp, Commandant, USCG. USTRANSCOM and the USCG 
have both advocated for additional icebreaker capability to ensure 
security and peaceful exploitation of economic opportunities in the 
Arctic domain. The USCG also partners with USTRANSCOM and the 
Geographic Combatant Commands in providing Port Security Units for port 
opening in theater and in providing domestic port security during out-
load operations at our U.S. strategic ports. Finally, the USCG inspects 
vessels during the activation of our reserve fleet. During contingency 
operations, USCG manning at USTRANSCOM can be augmented with additional 
USCG Reserve personnel assigned to our Joint Transportation Reserve 
Unit. In addition, USTRANSCOM and our transportation component 
commands, Military Sealift Command and Military Surface Deployment and 
Distribution Command, have agreements with the USCG to provide mutual 
support in areas of common interest.
    Mr. Scott. How much was spent in FY 11 on leasing foreign transport 
aircraft?
    General Fraser. We do not lease foreign transport aircraft. We 
contract for charters of foreign transport aircraft through our 
contracts with our U.S. Flag CRAF carriers when the material to be 
shipped will not fit on a US-flag carrier's aircraft or transportation 
is required into an airport where US-flag carriers are restricted from 
flying. For FY 11 we spent $372.2M for charter of foreign transport 
aircraft through the CRAF program. An additional $1.9M was spent 
directly with Korean Air Lines due to transit agreement requirements 
from the Uzbekistani Government.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. BROOKS
    Mr. Brooks. I am glad to read that the Administration is fully 
funding the Maritime Security Program. As your staff will report, MSP 
is a highly respected, cost-efficient way for the American Government 
to obtain assured sealift assets during these troubled times. My 
concern is the level of foreign involvement in the Maritime Security 
Program. I am concerned that over time the program has come to be 
dominated by foreign companies. I am informed that 49 of the 60 MSP 
contracts are controlled by foreign companies, that is about 80% of the 
program. When the program started the percentage was reversed--only 20% 
were foreign companies. My question is simple and a simple request--
What is TRANSCOM doing to ensure that firms owned and operated U.S. 
citizens have greater access to this program? The fact is that one day 
the military may have a mission and a cargo for a certain port or 
region and the foreign firms may refuse and we will have not grown and 
sustained a sufficient U.S. maritime capacity to accomplish that 
assignment. Having said that, I was told that the MARAD Administrator 
David Matsuda, in his hearing with the House's Transportation and 
Infrastructure Committee, stated that he considers MSP one of his most 
important programs. This leads me to my request--General Fraser can you 
please send me a report on initiatives TRANSCOM will consider to 
improve U.S. citizen participation in MSP.
    General Fraser. Currently, all 60 MSP vessels are owned or operated 
by U.S. citizens. Any vessels whose ownership is affiliated with a 
foreign parent company have provided statutorily required assurances in 
writing the parent company will not interfere with the operation of the 
vessel and there are no legal impediments by law or treaty which would 
have a negative impact on the interests of the United States in such 
vessel. U.S citizenship participation is an important aspect of the MSP 
due to the impact on the U.S. mariner community. While MARAD maintains 
authority to manage the MSP, I support their efforts in maintaining 
U.S. citizenship participation in MSP either through ownership or 
operation of participating vessels. I will be happy to coordinate with 
MARAD in developing initiatives which facilitate participation in MSP.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
